<html>
<title> - THE EVERY STUDENT SUCCEEDS ACT:. STATES LEADING THE WAY</title>
<body><pre>[Senate Hearing 115-848]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 115-848

                    THE EVERY STUDENT SUCCEEDS ACT:
                         STATES LEADING THE WAY

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING THE EVERY STUDENT SUCCEEDS ACT, FOCUSING ON STATES LEADING 
                                THE WAY

                               __________

                           SEPTEMBER 25, 2018

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-295 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
        
        
        
        
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
MMICHAEL B. ENZI, Wyoming		PATTY MURRAY, Washington
RICHARD BURR, North Carolina		BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia			ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky			MICHAEL F. BENNET, Colorado
SUSAN M. COLLINS, Maine			TAMMY BALDWIN, Wisconsin
BILL CASSIDY, M.D., Louisiana		CHRISTOPHER S. MURPHY, Connecticut
TODD YOUNG, Indiana			ELIZABETH WARREN, Massachusetts
ORRIN G. HATCH, Utah			TIM KAINE, Virginia
PAT ROBERTS, Kansas			MAGGIE HASSAN, New Hampshire
LISA MURKOWSKI, Alaska			TINA SMITH, Minnesota
TIM SCOTT, South Carolina		DOUG JONES, Alabama    
                                     
                                     
               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                 Evan Schatz, Democratic Staff Director
             John Righter, Democratic Deputy Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                      TUESDAY, SEPTEMBER 25, 2018

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, Opening statement.........................     1
Murray, Hon. Patty, Ranking Member, a U.S. Senator from the State 
  of Washington, Opening statement...............................     3

                               Witnesses

Blomstedt, Matthew L., Ph.D., Commissioner, Nebraska Department 
  of Education, Lincoln, NE......................................     6
    Prepared statement...........................................     8
Bunting, Susan, Ed.D., Secretary, Delaware Department of 
  Education, Dover, DE...........................................    11
    Prepared statement...........................................    13
Jeffries, Shavar, President, Democrats for Education Reform, 
  Newark, NJ.....................................................    16
    Prepared statement...........................................    18
Spearman, Molly, Superintendent, South Carolina Department of 
  Education, Columbia, SC........................................    21
    Prepared statement...........................................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
Bloomstedt, Matthew:
    Supporting documentation from the Nebraska Department of 
      Education.................................................. 54-70
Bunting, Susan:
    U.S. Department of Education, Office of Elementary and 
      Secondary Education........................................ 71-72
    Delaware Department of Education, One Percent Waiver Request. 73-84

                         QUESTIONS AND ANSWERS

Response by Matthew Bloomstedt to questions of:
    Hon. Todd Young..............................................    85
    Hon. Patty Murray............................................    87
    Hon. Bernard Sanders.........................................    89
    Hon. Elizabeth Warren........................................    92
    Hon. Tim Kaine...............................................    94
    Hon. Maggie Hassan...........................................    96
    Hon. Doug Jones..............................................    98
Response by Molly Spearman to questions of:
    Hon. Patty Murray............................................    99
    Hon. Bernard Sanders.........................................   102
    Hon. Elizabeth Warren........................................   104
    Hon. Tim Kaine...............................................   106
    Hon. Maggie Hassan...........................................   107
    Hon. Doug Jones..............................................   109
Response by Shavar Jeffries to questions of:
    Hon. Patty Murray............................................   110
    Hon. Bernard Sanders.........................................   111
    Hon. Tim Kaine...............................................   115
    Hon. Doug Jones..............................................   116
Response by Susan Bunting to questions of:
    Hon. Patty Murray............................................   117
    Hon. Bernard Sanders.........................................   120
    Hon. Elizabeth Warren........................................   122
    Hon. Tim Kaine...............................................   124
    Hon. Maggie Hassan...........................................   125
    Hon. Doug Jones..............................................   127

 
                    THE EVERY STUDENT SUCCEEDS ACT:.
                         STATES LEADING THE WAY

                              ----------                              


                      Tuesday, September 25, 2018

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, Chairman of the Committee, presiding.
    Present: Senators Alexander [presiding], Cassidy, Young, 
Scott, Murray, Casey, Bennet, Murphy, Warren, Kaine, Hassan, 
Smith, and Jones.

                 OPENING STATEMENT OF SENATOR ALEXANDER

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Senator Murray and I will each have an opening statement. 
Then I will introduce the witnesses, whom we welcome today. 
Then we will hear from the witnesses, as I said, and then 
Senators will each have 5 minutes to ask questions.
    We have a full house of guests in the audience and I 
welcome you here. We are glad you are here. This is part of 
your right as an American citizen. You can expect a vigorous 
back and forth among the Senators. That is the nature of this 
Committee. We have different points of view, but I would ask 
that those in the audience respect the rules of the Senate in 
terms of no applause, or demonstrations, or comments during the 
hearing.
    Candace Hines, a kindergarten teacher in Memphis, recently 
wrote in the Memphis ``Commercial Appeal'' the following, 
``This year, Tennessee schools will begin to implement our 
state's new education plan under the Every Student Succeeds 
Act,'' which we call ESSA. ``Unlike the previous education law, 
No Child Left Behind, ESSA gives Tennessee more autonomy to 
design policies to meet the needs of our state's students,'' 
she wrote. ``ESSA empowers Tennessee with the responsibility to 
decide how to close achievement gaps, improve schools, and make 
sure that all our children succeed.''
    Reaching the point of fixing No Child Left Behind took 
seven years of congressional efforts, 27 hearings, and a three-
day markup in this Committee where we considered 57 amendments.
    The consensus this Committee reached was this: continue the 
law's important measurements of academic progress of students, 
but restore to states what to do about that progress.
    The Every Student Succeeds Act gave Tennessee, in Candace's 
words, ``A real opportunity for our state to build on the 
progress we have made and enact change, especially in 
traditionally underserved communities.''
    Today, I look forward to hearing how Nebraska, South 
Carolina, and Delaware are taking advantage of that 
opportunity. Under ESSA, in order to receive over $18 billion 
in annual Federal funding, states have the opportunity to 
design their own state plan that includes setting academic 
goals for students, measuring schools' performance, and 
deciding how to fix failing schools.
    In the words of two Memphis teachers, Soya Moore and 
Jessica Hurtley, ``ESSA put issues such as teacher evaluations, 
student assessments, and school reform directly into the hands 
of state education departments and school districts. ESSA 
provides a window of opportunity for teachers to get in on the 
policy discussion and the law's implementation planning.''
    Today, 49 states, plus the District of Columbia and Puerto 
Rico, have had their plan approved by the U.S. Department of 
Education.
    Last October, this Committee held a hearing to hear from 
the state education chiefs in three states--Tennessee, 
Louisiana, and New Mexico--that were among the best at making 
the most of the new law by designing innovative plans.
    For example, we heard from Tennessee Education 
Commissioner, Candice McQueen, about the state's development 
and use of a Ready Graduate indicator that will evaluate 
students' readiness for college, career, or the military 
service.
    This past spring, students in grades 3 to 8 and high school 
took the federally required tests in reading, mathematics, and 
science, giving states under these new plans new data. This 
gives that new data a chance to see how students are making 
progress toward the new achievement goals that each state has 
set.
    Some states--such as Idaho, North Dakota, Texas--are 
starting to run this new data through their state designed 
accountability systems and have released lists of schools 
identified for support and improvement. All states are working 
to produce these new lists and then we will begin to work with 
local districts to improve these schools.
    Today, we will hear specifically from three states who, 
based upon my review of the plans, have also taken advantage of 
the flexibility we encouraged under the law to design 
innovative plans.
    For example, South Carolina is using flexibility provided 
under ESSA to use some of its Title 1 money to fund programs 
for high school students to take dual credit classes, or for 
students to receive extra math or reading help at afterschool 
programs.
    Nebraska's ESSA plan includes a statewide data base so 
teachers can access best practices, share information with each 
other, and work together.
    Delaware's accountability system includes a College and 
Career Preparedness indicator which will measure the percentage 
of high school students who have successfully taken advanced 
classes or had technical skills training that will prepare them 
for success after graduation.
    Former North Carolina teacher and principal, Alison 
Welcher, recently wrote, ``Ultimately, these plans are just 
writing on paper. The most important work states will undertake 
comes during the next phase: implementation. We are at a 
tipping point. States have an exceptional opportunity to use 
their authority to set a high bar for those who have the 
privilege of leading our Nation's schools.''
    The Every Student Succeeds Act put states back in the 
driver's seat for decisions on how to help their students, and 
I am eager to see what this new chapter holds for our Nation's 
students.
    Senator Murray.

                  OPENING STATEMENT OF SENATOR MURRAY

    Senator Murray. Well, thank you very much, Chairman 
Alexander.
    I do want to thank all of our witnesses that are here 
today. This is an important hearing on the implementation of 
ESSA.
    But before I talk about that, I do want to dig into one 
issue that is on the mind of every teacher, parent--many of 
them who are here today--students, and should be a focus of 
this Committee, and that is the growing number of deadly school 
shootings around our country.
    In the aftermath of these shootings, we should be doing 
everything we can to address gun violence and make our schools 
safer. Unfortunately, Secretary DeVos is heading in the 
opposite direction. Despite an outcry from students, and 
parents, and teachers, and Members of Congress, she is going to 
allow schools to use Federal funds to purchase guns or firearm 
training for teachers.
    This is not what Congress intended when we passed the 
bipartisan Every Student Succeeds Act. And some Republicans, 
like Congressman Cole, have made that point clear. Congressman 
Cole said, and I quote, ``It is already against the law. I 
think it is pretty clear if you read the Every Student Succeeds 
Act.''
    Even worse, this idea is dangerous and it could put the 
lives of all of our children and schools' staff at risk. You 
only need to hear one story of a teacher that accidentally 
fires a gun in a classroom, or leaves it where a child can get 
access to it, or threatens a child with a gun to know we need 
fewer firearms in schools, not more.
    Now, Secretary DeVos is claiming that Congress did not give 
her the authority to stop this, but Republicans and Democrats 
in Congress are telling her the opposite. She absolutely does, 
and can, and should put an end to this reckless and 
irresponsible idea.
    Secretary DeVos refuses to hold up her responsibility to 
keep student safe. Mr. Chairman, I hope that you will work with 
me to make it abundantly clear to her that this is not what we 
intended in our legislation and direct her to do the right 
thing.
    While it is on Secretary DeVos to act, our hands are not 
tied. We could work together, and should work together, just as 
we did to pass ESSA to stop this.
    Finally on this point, Mr. Chairman, I want to express my 
support for Senator Murphy and every other Democrat, actually, 
on this Committee's request for Secretary DeVos to come and 
testify in front of this Committee on ESSA and on gun safety.
    Twenty months into this administration and neither 
Secretary DeVos nor anyone from her Department have testified 
in front of this Committee. Now, I understand that Secretary 
DeVos may not want to come in front of us, but given the 
urgency of this issue of school safety, Mr. Chairman, I do hope 
that we can remedy that as soon as possible.
    Now Mr. Chairman, on numerous occasions I have expressed, 
as well, my concerns with Secretary DeVos' approval of state 
plans that do not comply with the law.
    I have voiced these concerns in this Committee room and in 
private conversations with the Chairman, and I am disappointed 
that, so far, we have been refused to honor the agreement that 
was made in this room and work with me to resolve the issues 
with Secretary DeVos' implementation of our bipartisan law 
because all but one plan has now been approved.
    Today I really want to focus on the real life impacts of 
some of these flawed state plans.
    Secretary DeVos has approved state accountability systems 
that do not take into account the performance of certain groups 
of students including low income students, students of color, 
students with disabilities, and English learners.
    Democrats voted for this law, in part, because of these 
requirements to ensure equity. Yet, they are being disregarded 
by this administration. Secretary DeVos has also approved plans 
that fail to properly identify schools that need help or 
support getting back on track.
    Here is what this really means for students and schools in 
our communities. Without properly counting the success of 
groups of students who have historically struggled in a 
school's overall performance, a school may look like it is 
succeeding, even if all the African Americans students or all 
the students with disabilities, for example, are falling 
behind.
    Without properly identifying three separate categories of 
schools in need of support or improvement, a school that is in 
need of a little bit of support will never be identified. And 
rather than getting the help that it needs, the school's 
problems may get worse and a school could fall further and 
further behind.
    These are not theoretical. Under the plans Secretary DeVos 
has approved, students will fall through the cracks and schools 
will be left off worse. At their core, these provisions are 
about providing equity in our schools.
    Now, equity is not easy. We have to put in the hard work. 
We have to ask schools to put in the hard work. We have to ask 
students to put in the hard work to get a strong education and 
set themselves up for a success, but we have to do our part. We 
have to ensure that Secretary DeVos is implementing the law the 
way we agreed to it to give those students a fair shot.
    Our Federal education law should not be focused solely on 
making states' lives easier. It should be about providing every 
student--no matter where they live, or how they learn, or how 
much money their parents make--the opportunity to better 
themselves through education.
    Finally, I do want to touch on one more issue with 
Secretary DeVos' implementation, now that she has approved all 
but one of these state plans. When we worked together on ESSA, 
we set out to build on the strong steps that were being made to 
hold states accountable for the learning of students with 
disabilities.
    I made it a priority to ensure we were not leaving students 
with the most significant cognitive disabilities behind by 
limiting the number of children who could be tested using a 
simplified assessment.
    Well, it is only appropriate to use this test with about 
one half of 1 percent of students. We set the cap at 1 percent. 
This is important because if too many students are taking the 
simplified test, it means that too many students are being 
taught to a lower standard, and that too many students with 
disabilities are being subjected to low expectations.
    It is concerning to me that Secretary DeVos has waived the 
1 percent cap for 23 states that have not made public the 
waiver request and the supporting documents public. 
Transparency here is important and parents and Congress have a 
right to have this information. So I hope we can address that 
issue as well today, and I hope to hear from the states that 
are here today.
    There are clearly, in my opinion, a lot of problems with 
the way Secretary DeVos is implementing our bipartisan K-12 
education law. And I do hope today that rather than just 
focusing solely on the things we like, that we do the hard work 
and address the very real concerns with the way this law is 
being implemented and focus on the students that are going to 
be impacted.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    I will address two or three of those points briefly, but I 
will do it during my 5 minutes when the time comes, so we can 
appreciate Senator Murray's comments.
    We will go now to the witnesses. Thank you for being here.
    Our first witness is Dr. Matthew Blomstedt, who is the 
Nebraska Commissioner of Education. He has led the statewide 
effort to create the Nebraska Every Student Succeeds Act state 
plan working to find input from thousands of Nebraskans.
    Prior to becoming Commissioner, he served as Executive 
Director of the Nebraska Rural Community Schools Association.
    Our next witness is Dr. Susan Bunting, Secretary of the 
Delaware Department of Education. Dr. Bunting makes it a 
priority to visit 100 schools statewide every year. I think 
there are only three counties in Delaware. Are there not? That 
is a lot of schools for three counties.
    Prior to her time as Secretary, Dr. Bunting served as the 
Indian River School District Superintendent. She was a Middle 
School language arts teacher and an elementary school gifted 
and talented teacher.
    Our third witness, I will introduce. Mr. Shavar Jeffries, 
President of Education Reform Now. Welcome. Mr. Jeffries' 
commitment to improve education stems directly from his 
personal experience. He was raised by his grandmother in the 
South Ward of Newark, New Jersey. His grandmother, a public 
school teacher, instilled in him a deep respect for the value 
of education.
    He served as a former Associate Professor of law at Seton 
Hall Law School Center for Social Justice at Newark, New 
Jersey.
    Our final witness is Ms. Molly Spearman, State 
Superintendent of South Carolina. Ms. Spearman was named South 
Carolina's State Superintendent of Education in January 2015. 
Since that time, she has worked to prioritize school safety and 
instruction to ensure that every child is on track to college 
or a professional career.
    Prior to her time as Superintendent, Ms. Spearman served as 
a music teacher, public school assistant superintendent, four 
term member of the South Carolina House of Representatives, 
deputy superintendent of the South Carolina Department of 
Education, and Executive Director of the South Carolina 
Association of School Administrators.
    We thank the four of you for coming and we will now begin 
remarks.
    Dr. Blomstedt, let us begin with you.

    STATEMENT OF MATTHEW L. BLOMSTEDT, PH.D., COMMISSIONER, 
         NEBRASKA DEPARTMENT OF EDUCATION, LINCOLN, NE

    Dr. Blomstedt. Thank you, Senator Alexander, Ranking Member 
Murray, and all Members of the Committee.
    Thank you, really, for the opportunity to appear before you 
to discuss Nebraska's implementation of the Every Student 
Succeeds Act.
    Nebraskans are proud of the education system in our state. 
We typically rank high in student achievement on various, 
different settings. Yet with other states, we have an equity 
issue as well. We face longstanding gaps in achievement based 
on race, poverty, special needs, ethnicity, English learners, 
every subgroup or category that we are very concerned about. In 
2014, Nebraska embarked on a journey at the state level to 
address these longstanding gaps.
    I am grateful for this Committee and to Congress for 
passing the Every Student Succeeds Act in 2015 as it really 
complements our work to address these disparities head on and 
reach our full vision that all students receive the preparation 
they need for learning, earning, and living.
    Let me take you back to 2014 just for a moment. Early that 
year is the first year that I actually started. I started on 
January 2, 2014. But the Nebraska legislature passed revisions 
to our Quality Education Accountability Act. Legislative bill 
438 set forth the new vision for educational improvement along 
with an educational accountability system that we now call 
Accountability for a Quality Educational System Today and 
Tomorrow, or AQuESTT.
    As part of the planning and implementation of AQuESTT, the 
State Board of Education and I conducted stakeholder input 
sessions to further refine and improve the initial system that 
was proposed. That journey continues. With changes adopted in 
L.B. 438, the Governor, the State Board of Education, myself, 
and the legislature included, are all working toward the common 
vision for education.
    The State Board further directed efforts with a strategic 
plan that highlights specific goals around student achievement 
and seeks to engage school districts in a partnership with the 
state to address these historic gaps in achievement.
    With the passage of ESSA, we now see the Federal Government 
as a strong partner in supporting us to execute on this vision 
and to address the achievement gaps in our state.
    ESSA has allowed us to better align Federal programs into 
our state system, which would not have been possible underneath 
No Child Left Behind without significant waivers to that law. 
In fact in early 2015, Nebraska submitted an application for a 
waiver before we knew ESSA would become law.
    Under our state law, we were already planning to classify 
schools and invest more concentrated support in those schools 
that were identified for most need of assistance to improve. 
This would not have been allowed in that fashion underneath 
NCLB, but ESSA really gave us a roadmap to be able to move that 
vision forward.
    Today, we can move forward not only in establishing our 
long term goals, but working on key strategies to achieve them. 
Our long term goals include reducing the percentage of 
students, including students in each subgroup, who are not 
proficient in math, reading, and science by 50 percent over a 
ten-year period of time based on a baseline established in 
2014-2015.
    Similarly, we have set an objective to reduce the 
percentage of students who do not graduate and to reduce the 
percentage of our English learners who do not reach the state's 
growth targets for English language proficiency.
    Under ESSA, our state is able to align Federal supports for 
underperforming schools with state systems of accreditation and 
accountability. For instance, under our state law, we must 
identify priority schools to have the opportunity to provide 
substantial state-directed interventions toward improvement in 
these schools.
    The ability to align our state priority school status with 
Federal identification categories greatly strengthens our 
state's approach to school improvement, and leverages the 
Federal funds as a strong support for schools that are in need 
of improvement.
    Nebraska still has a lot of work to do to establish this 
particular system. So we are now also working and trying to 
change how we offer support to our schools identified under 
this accountability system and aligned with our state AQuESTT 
system.
    Based on the requirements of ESSA, Nebraska's systems will 
identify schools in need of comprehensive support and 
improvement, as well as targeted support and improvement, and 
hold them accountable for making improvements in the 
achievement of all students as appropriate also by subgroups of 
students' performance as triggers that target support as well.
    Our state agency will work with individual districts in 
turning around those particular schools, working as best we can 
to be able to support that, building the capacity across our 
educational service units and our Department of Education, and 
changing the path that we have taken.
    Further, we really provided that tailored assistance 
approach for schools that fall in certain categories. We have 
those that are traditionally rural, small community schools. We 
have those that are urban and metro schools. We have what we 
call demographically shifting communities, and we have Native 
American schools. We are trying to provide a particular focus 
on those places.
    In summary, Nebraska is committed to addressing inequities 
of the past by focusing on opportunities to learn for all 
students, and by adopting a relentless focus on outcomes that 
ensure all stakeholders deliver on the promise of equity.
    I really look forward to be able to share more and interact 
with you. So thank you, again, for this opportunity to be here.
    [The prepared statement of Dr. Blomstedt follows:]
               prepared statement of matthew l. blomstedt
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee:

    Thank you for the opportunity to appear before you to discuss 
Nebraska's implementation of the Every Student Succeeds Act (ESSA). 
Nebraskans are proud of the education system in our state; we typically 
rank among the top 15 in student achievement in all subjects and 
grades, as measured by the National Assessment of Educational Progress. 
Further, in 2014-2015 we had a four-year adjusted cohort graduation 
rate of 89 percent, well above the national average. As with other 
states, Nebraska faces long-standing gaps in achievement outcomes for 
students in certain student subgroups, like African American students 
and Native American students compared to those for our students as a 
whole. ESSA complements our work to address those disparities head-on 
to reach the state's vision of all students receiving the preparation 
they need for learning, earning, and living.

    Thank you, Senator Alexander, Senator Murray, and Members of the 
HELP Committee for leading the effort to enact ESSA in 2015. It 
replaced a Federal structure under the No Child Left Behind Act that 
dictated top-down goals and a nationally determined accountability 
system. ESSA, by contrast, has given states the opportunity to better 
align Federal accountability requirements with their own education 
policy objectives in a manner sensitive to state and local needs and 
circumstances. Toward that effort, the Nebraska Department of Education 
(NDE), with substantial input from stakeholders, embarked on a process 
of integrating ESSA with the state's educational accountability system 
that was implemented with the 2014 enactment of major education 
legislation in our state, Legislative Bill (LB) 438. That state law 
resulted in Nebraska developing a new vision for educational 
improvement, along with an educational accountability system that we 
call Accountability for a Quality Education System, Today and Tomorrow 
(AQuESTT).

    At the passage of LB 438 in early 2014 in the first few months of 
my tenure as Commissioner, and while beginning the development of our 
state ESSA plan in December 2015, the State Board of Education and I 
led significant stakeholder engagement efforts across Nebraska. We 
received input from a diverse array of voices including school board 
members, parents, private non-profit leaders, and community leaders 
among others. In Nebraska, we are fortunate to have an elected State 
Board of Education as a constitutional body that has a positive working 
relationship with the state legislature, Governor, and other 
policymakers across the state. As such, we have regular opportunities 
to engage with all of state and local government in a productive 
manner. We also used the NDE webpage as a mechanism for contact with 
stakeholders broadly, and thousands of individuals and groups provided 
input on our strategic plan, on AQuESTT, and on our ESSA plan. In 
addition to input through the website, specifically with respect to our 
ESSA plan, we embarked on a listening tour at seven locations around 
the state, conducted engagement sessions with other stakeholders, and 
carried out a number of other activities to ensure that many groups of 
individuals and perspectives were part of the planning process. While 
it may be difficult to include every voice effectively, I believe we 
heard the voices of varying stakeholder groups and incorporated their 
input and feedback when relevant. We will continue to work with 
stakeholders throughout the duration of the period covered by the plan 
and beyond ESSA. While we sought stakeholder engagement before ESSA, 
ESSA inspired us to improve our stakeholder engagement processes.

    The education of Native American students and communication with 
tribal governments continue to be an important focus of our work. ESSA 
contains new requirements to consult with American Indian tribes in the 
development and implementation our state plan and we continue to 
embrace the importance of that requirement. State tribal consultation 
is personally very important as we have identified our areas of focus 
on equity and believe there is a need to expand capacity to assist in 
the successes of state and local tribal consultation. I recognize that 
schools on tribal lands must serve the important needs of the local 
school district community as well as that of the sovereign tribal 
governance. The rich and open conversations I have had throughout our 
state with tribal leaders have personally opened my eyes about the 
importance of culturally relevant practices, tribal governance, and 
efforts to re-establish a Nebraska Indian Education Association. Those 
conversations were made priorities with the passage of ESSA and for 
that I am personally grateful and deeply committed.

    The state accountability law mentioned earlier, (LB 438) required 
NDE to classify the state's public schools. The State Board of 
Education approved four classification levels and identified the 
schools in the lowest level as Needs Improvement. Additionally, state 
law required that we select no more than three schools as ``priority 
schools'' with the opportunity to provide substantial and state 
directed interventions toward improvement. ESSA allowed us to better 
align Federal programs into our state system, which would not have been 
possible under NCLB without significant waivers of the law. In fact, in 
2015 Nebraska submitted a significant application for waiver in advance 
of the passage of ESSA. However, the passage of ESSA allowed the 
significant state direction to be realized without such a waiver. As a 
result, consistent with ESSA requirements, and building from our 
state's own strategic plan, we have established long-term goals of 
reducing the percentage of students (including students in each 
subgroup) who are not proficient in math, reading, and science by 50 
percent over a ten-year time period, from a baseline established in 
2014-2015. Our performance indicators and interim measures of progress 
under ESSA are aligned with that objective, which we believe to be 
ambitious but achievable. Similarly, we have set an objective of 
reducing the percentage of students who do not graduate (using the 
four-year adjusted cohort rate and an extended seven-year rate) by 50 
percent over a ten-year period and of reducing, again by 50 percent and 
over 10 years, the percentage of our English learners who do not reach 
the state's growth targets for English language proficiency.

    Importantly, our state has also established challenge (or stretch) 
goals calling for higher performance in some of these areas. The 
inclusion of these additional goals resulted from conversations with 
Nebraska Governor, Pete Ricketts and I directly. Although Governor 
Ricketts did not sign our plan specifically, he did submit a letter in 
support of the plan to Secretary DeVos. The Governor also worked 
closely with me to identify areas that could be enhanced for the future 
and to identify areas of statute and rule that might be amended to 
maintain a high expectation. For example, our challenge goal for 
academic achievement is a 70 percent (rather than 50 percent) reduction 
in the rate of non-proficiency. We will carefully monitor our schools' 
performance against the initial goals to see if, in a later year, we 
should transition to the more ambitious stretch goals instead.

    Equally important to the work with Governor Ricketts on ideas in 
the ESSA plan have been conversations and partnership with the state 
legislature in making small but important changes in the state 
accountability law. This past spring the legislature passed LB 1081, an 
omnibus bill on behalf of the Nebraska Department of Education that 
included important provisions, which enhanced the ability of our then 
submitted ESSA plan to better align with state statute. For instance, 
the legislature passed and the Governor approved provisions that 
included assuring annual classification of school districts and 
buildings, expanding the number of state priority schools from ``no 
more than three'' to ``no less than three'' and adding important 
language for a Nebraska Reading Improvement Act. All such changes 
assist the alignment of ESSA goals with the state accountability 
system. Most significantly, the powers of state governance still make 
up the bulk of the authority, funding, and responsibility for education 
of Nebraska's students. The benefit of ESSA is that it will fully 
support those powers of the state to benefit and direct resources to 
schools that are most in need of support for improvement. The ability 
to align Federal supports established in comprehensive support and 
improvement (CSI) and targeted support and improvement (TSI) schools is 
strengthened by the powers of the state through accreditation and 
accountability. For instance, the ability to use our priority school 
status with additional schools is a much stronger power than CSI or TSI 
alone. Public schools are compelled under state law to meet the 
requirements of accreditation and now under the accountability 
provisions that allow intervention in priority schools. Nebraska still 
has work to do in establishing the most effective alignment of these 
supports and powers, but I believe this is a major step forward in the 
proper alignment of Federal, state, and local governments for the 
improvement of schools, student experiences, and student achievement.

    Additionally and with a particular attention to student 
achievement, Nebraska includes performance indicators for academic 
achievement and growth, high school graduation, and English language 
proficiency; ESSA requires that a state accountability system include 
one or more indicators of school quality and student success. In 
Nebraska, we included measures of chronic absenteeism (a student 
missing at least 10 percent of school days), science achievement 
(measured using our state assessments), and the, Evidence-Based 
Analysis, or EBA. The EBA is a measure of school quality based on the 
extent to which schools implement certain policies, practices, and 
procedures, such as practices that support on-time grade completion and 
provide educational opportunities and access. These indicators arose 
from our work on AQuESTT, reflected what our stakeholders believe are 
key indicators of school performance, and meet the ESSA requirement 
that school quality and student success indicators be valid and 
reliable across the state, and produce data that can be disaggregated 
by subgroups.

    Taken together, our performance indicators present a multi-
dimensional and holistic picture of what our schools are accomplishing; 
one that I believe is far superior to the situation we had under NCLB 
that had a unidimensional focus on the percentage of students testing 
proficient in reading and math. Our accountability system incorporates 
these various indicators in a manner that reflects our state's judgment 
on the appropriate weighing and meets the ESSA requirements. Most of 
all, I continue to be encouraged by Secretary DeVos and those at the 
USDE who challenge states to continue to evolve and innovate through 
this accountability system. Plans of this magnitude must adapt and 
change in order to remain a positive force for improvement. I believe 
we can always be improving, and the flexibility afforded under ESSA 
lives up to that vital aspiration.

    Based on the requirements of ESSA, Nebraska's system will identify 
schools in need of comprehensive support and improvement (CSI) and 
targeted support and improvement (TSI) and hold them accountable for 
making improvements in the achievement of all students or, as 
appropriate, of the student subgroups in which the performance has 
triggered a TSI identification. The NDE will work with individual 
districts in turning around those schools. Beginning this school year, 
we are awarding the Section 1003 school improvement funds 
competitively, with the competition structured so that local 
educational agencies (LEAs) with the greatest need for assistance to 
improve will have the most likelihood of receiving funding. Further, 
NDE and intermediate education agency staff are being trained to work 
with CSI schools, including training on the monitoring the uses of 
school improvement funds. Consistent with the law, our staff will also 
provide technical assistance (to each LEA in the state that has a 
significant number of CSI or TSI schools) on the use of evidence-based 
educational interventions. This effort will begin with completion of a 
needs analysis for each targeted LEA. Further, we will provide tailored 
assistance to schools falling within certain categories: small 
community schools, urban and metro schools, demographically shifting 
schools, and Native American schools.

    It is important to note that valid and reliable assessment is 
essential if we are to hold schools accountable for the achievement of 
their students, and if we are to give parents and other community 
members accurate information on how their children are progressing. 
Accordingly, we recently announced the creation of our Nebraska 
Student-Centered Assessment System (NSCAS). NSCAS is comprised of 
multiple measures of student learning, including formative assessments 
that enable educators to monitor student understanding and adjust 
instruction in the moment; interim assessments that track academic 
growth and target learning needs over time; and summative assessments 
that provide final measures of student achievement in English language 
arts, reading and science. The system also includes professional 
development opportunities that help teachers use assessment data to 
strengthen their instruction and effectiveness. In addition, we are 
providing LEAs and schools with information on how to engage parents in 
assessment, such as on test-taking strategies, what questions to ask 
teachers about assessment results, and guidance on how results are best 
used to support student learning. We are confident this new system will 
enable Nebraska to test more efficiently and effectively, and provide a 
foundation for our efforts to improve education for all our students.

    Finally, an effective and engaged educator workforce is an 
essential component of any effective system of public education. ESSA 
gave Nebraska new tools and opportunities for supporting our teachers 
and school leaders. We have worked with stakeholders to develop 
activities under Title II that align with initiatives already underway 
in the state on improving educator effectiveness and increasing equal 
access to effective educators. This work resulted in the creation of an 
Educator Workforce Index that measures the quality of a district's 
educator performance assessment system, and the extent to which 
students are exposed to inexperienced, out-of-field, or unqualified 
teachers and school leaders. We expect to continue to improve that 
effort and anticipate the approach will drive ongoing conversations and 
efforts on educator quality and equity. In particular, it should 
support attainment of our strategic plan goal that, by 2020, all 
Nebraska districts have a research-based evaluation system for all 
certificated staff.

    We will also take advantage of the optional three percent set-aside 
available under Title II for strengthening school leadership, and use 
it for activities that increase the capacity of school leaders to 
attract, recruit, develop, and retain effective educators. This action, 
which directly focuses on a critical need as identified by our 
stakeholders, is another example of how ESSA has given us new tools 
with which to tackle our particular needs and challenges in K-12 
education.

    In summary, Nebraska is committed to addressing inequities of the 
past by focusing on opportunities to learn for all students and by 
adopting a relentless focus on outcomes that ensure all stakeholders 
deliver on the promise of equity. We have asked all Nebraskans to join 
us in this commitment and the historic principles of equity embedded in 
the Elementary and Secondary Education Act as reauthorized by ESSA. 
This unmatched opportunity to lead a state-level approach to equity 
with a strong Federal and local partnership is not one Nebraska takes 
lightly. Instead, we continue to champion commitments to equity, build 
capacities to improve supports for schools and students, and enhance 
our efforts to be change agents for the good of all of Nebraska's 
students.

    This concludes my brief overview of Nebraska's implementation of 
the Every Student Succeeds Act. I look forward to sharing more of 
Nebraska's progress under ESSA with you, and am pleased to take your 
questions.
                                 ______
                                 
    The Chairman. Thank you, Dr. Blomstedt.
    Dr. Bunting.

    STATEMENT OF SUSAN BUNTING, ED.D., SECRETARY, DELAWARE 
               DEPARTMENT OF EDUCATION, DOVER, DE

    Dr. Bunting. Chairman Alexander, Ranking Member Murray, and 
Members of the Committee.
    Thank you for having me here today as well, and for working 
to approve the Every Student Succeeds Act with bipartisan 
support three years ago.
    In 2015, I was serving as a district superintendent and 
advocated on behalf of Delaware's chiefs for the passage of 
this law in Congress. We recognized that No Child Left Behind 
had run its course and welcomed this reauthorized law to give 
us the opportunity to promote different approaches to improving 
struggling schools.
    Today, I have the honor of serving as Secretary of 
Education in Delaware. In this role, I realized that by passing 
ESSA, Congress has harnessed the energy in states and local 
communities, and infused promising practices into the 
implementation of the new law while still ensuring appropriate 
accountability guardrails.
    While it is too early to provide final judgment on the 
prospects of ESSA to achieve these goals, I am greatly 
encouraged by the work underway in Delaware to create more 
equitable opportunities for all children. We will be sharing 
some of this progress as we talk with you today.
    Delaware educators are working to get it right for students 
with support from the Council of Chief State School Officers, 
we are working to close gaps and to turn around schools. We are 
making sure that school improvement interventions do not result 
in unintended consequences for children. Most importantly, we 
are doing all of this by surrounding ourselves with 
stakeholders who are providing constant feedback to make sure 
that we get it right.
    From the beginning, the law rightly asked states to work 
closely with stakeholders and we embraced that opportunity 
involving a diverse group of stakeholders to both write our 
ESSA plan and to help us implement the law.
    To help create the plan, we brought together an ESSA 
Advisory Council, whose members ran the gamut from the 
President of the State's Superintendents Association to a 
Nanticoke Tribe member, from legislators to P.T.A. officers, 
and from businessmen to the Executive Director of the Latin 
American Community Center. These stakeholders made many of the 
critical decisions.
    One example can be seen in our statewide accountability 
system, which now includes multiple measures of school success 
rather than a single academic indicator. Included at both the 
elementary and secondary levels are academic proficiency in 
English language arts and math, and also growth in English 
language arts and math.
    In addition, school quality measures include chronic 
absenteeism, proficiency in science and social studies, career 
and college preparedness, and ninth graders being on track to 
graduate. A further indicator of student success is the 
graduation rate itself. Delaware also measures English language 
learners' progress toward proficiency.
    Our stakeholders also have helped to redesign how the 
Department of Education will offer support to low performing 
schools. We have created a Performance Support Team, no longer 
as a single office within the Department responsible for school 
improvement, rather a team is ready to come together across 
areas of expertise to address the specific and unique needs of 
each of our schools.
    Once schools are identified, the Performance Support Team 
will offer a menu of evidence-based available supports that can 
be aligned with individualized plans developed jointly between 
the state and local education agencies.
    Delaware's political leaders have also strongly seized a 
role in our state's school improvement movement, investing 
additional funds for math specialists and reading 
interventionists, and putting $6 million in grants for schools 
with large low income or English learner student populations.
    ESSA's positives have been many and its negatives few. 
However, we have encountered a few challenges in implementing 
the law.
    For example, our design to include science and social 
studies proficiency in the academic achievement and progress 
sections of our accountability system failed to receive initial 
Federal approval even though Secretary DeVos has strongly 
encouraged states to think out of the box. Consequently, we 
were forced instead to relegate these two subjects to the 
school quality section of our accountability system.
    As Delaware journeys deeper into ESSA implementation, the 
most significant obstacle, that of turning around our 
struggling schools, still lies ahead. We have the structure, 
though, and the partners in place to improve outcomes for all 
students.
    When the Senate voted overwhelmingly to approve ESSA, it 
was a vote of confidence in state and local educators, and 
their ability to do what is right for children.
    I reiterate my gratitude for allowing us the flexibility to 
implement ESSA in a way that best addresses the specific needs 
of the students in each state, and I request that you continue 
to support us as we work closely with stakeholders in our state 
to fully implement the law to ensure every student's success.
    As state leaders, we do not consider this a job. It is our 
life's work. Like my colleagues here today, Delaware is 
committed to maximizing ESSA-supported opportunities that can 
lead to better outcomes for all of our students. We will make 
it happen. Our children deserve nothing less.
    Thank you.
    [The prepared statement of Dr. Bunting follows:]
                 prepared statement of susan s. bunting
    First, I would like to thank this Committee for working to develop 
and approve ESSA with 85 ``yes'' votes in the Senate in 2015. At that 
time, I was serving as a local district superintendent and as an AASA 
legislative advocate, and was fortunate to share the perspective of 
superintendents with Delaware's congressional delegates to not only 
confirm that No Child Left Behind (NCLB) had run its course and that 
its one-size-fits-all approach did not yield necessary improvements, 
but to also enthusiastically support the new law's support for 
promoting different approaches to improving struggling schools across 
the country. By passing ESSA, Congress harnessed the energy in states 
and local communities in Delaware and across the country, and infused 
promising practices into the implementation of the new law while still 
ensuring appropriate accountability guardrails. While it is too early 
to provide final judgment on the prospects for ESSA to realize its 
goals, I am greatly encouraged by the work underway in Delaware to 
create more equitable opportunities for all children.
    Stakeholder Engagement in ESSA Assessment, Accountability, and 
                               Reporting
    Congress embraced state and local flexibility in ESSA, while 
preserving accountability for outcomes for all students. This was a 
bipartisan acknowledgement that states and school districts, with the 
support of the U.S. Department of Education, are best situated to know 
how to serve the young people in their communities. No one better 
understands the potential and the possible pitfalls faced by our 
schools than the education professionals I represent and serve. 
Delaware educators are working to ``get it right'' for students. With 
support from the Council of Chief State School Officers, we are working 
to close gaps and turn around schools, and we are making sure that 
school improvement interventions don't result in unintended 
consequences for kids. To date, we have attempted to do this by 
surrounding ourselves with stakeholders who are providing constant 
input and feedback on the best ways to maximize flexibility in 
promoting student success.

    Admittedly, from the beginning, Delaware's ESSA plan has been one 
``of the people, by the people, and for the people.'' The law rightly 
asks states to work closely with stakeholders--teachers, principals, 
parents, students, tribal leaders, and community organizations--to do 
what is best for the students in their state and local communities. 
Delaware thoroughly embraced this opportunity and involved a diverse 
group of stakeholders in not only writing its ESSA plan but also in 
myriad other ESSA-connected activities. The plan's design was a 
collaborative effort between the Department of Education and an ESSA 
Advisory Council, whose members ran the gamut from the president of the 
state's superintendents' association to a Nanticoke tribe member, from 
legislators to PTO officers, and from businessmen to the Executive 
Director of the Latin American Community Center. Together they crafted 
a plan that strikes an appropriate balance by setting a high bar to 
ensure all kids receive an equitable education while making sure those 
closest to students have the flexibility they need to make critical 
decisions on how to reach mutually established targets.

    As an example, the law makes sure every child is tested at least 
once a year, but allows state and local leaders to determine the best 
way to conduct those assessments. Stakeholders contributed to 
Delaware's selection of Smarter Balanced as its assessment tool to 
measure third through eighth graders' academic proficiency and growth. 
Being concerned about the testing load for upperclassmen, they 
supported the decision to administer the SAT to all eleventh graders to 
fulfill the high school academic assessment requirement.

    Another major stakeholder contribution was a distinct but equally 
diverse committee's creation of a new statewide accountability system, 
entitled the Delaware School Success Framework (DSSF). Developed by 
practitioners and stakeholders, DSSF includes multiple measures of 
school success rather than a single academic indicator. Included at 
both the elementary and secondary levels are academic proficiency in 
ELA and math and growth in ELA and math. In addition, school quality 
measures include chronic absenteeism, proficiency in science and social 
studies, career and college preparedness, and a 9th grader's being ``on 
track'' for graduation. A further indicator of student success is the 
graduation rate, which is calculated for the four-, five-, and six-year 
adjusted cohort. The latter two indicators are factors solely at the 
secondary level. Finally, at both levels, English Language Learners' 
progress toward proficiency as documented via ACCESS 2.0 is a factor in 
each school's overall ``success.'' All factors are weighted with the 
academic measures comprising a greater percentage of the overall 500-
point index.

    Delaware's communities were also deeply involved in the design of 
new ESSA state, district, and school report cards, which will debut on 
December 17th of this year. Mirroring the practice of conducting 
community conversations about the ESSA plan design, a Delaware 
Department of Education team held an assortment of meetings with 
parents and community members throughout the state to solicit input 
regarding what information they would most like displayed via the 
electronic document. Participants in these sessions examined lists of 
Federal and state required contents, identified which of those along 
with community specific informational items warranted inclusion, and 
expressed preferences for which should be featured on the main page and 
which should be listed under tabs. The result of this collaborative 
process, precipitated by congressional approval of ESSA, is that the 
federally required report card will better reflect Delaware's community 
needs than prior iterations have in the past.
             Transforming State and Local Education Systems
    This connectivity with stakeholders from the 98-mile stretch of 
this gem of a state is only one of the noteworthy changes in what 
Delaware is doing differently under ESSA. Paramount as well has been 
the restructuring of our State Department of Education, which has been 
transformed from a regulatory agency into a supportive one. During the 
ESSA plan design, the Department adopted an icon featuring Delaware's 
vision of ``Every learner ready for success in college, career and 
life'' surrounded by the top priorities for the state's work--rigorous 
standards, engaged community, early learning, and environments 
conducive to learning. These priorities focus the Department's work to 
the extent that every project and even budget decisions are strictly 
guided by the citizen committees' and Department staff's established 
priorities. In order to best prepare for the identification of 
Comprehensive Support and Improvement (CSI) and Targeted Support and 
Improvement (TSI) schools, our agency has reorganized personnel and 
responsibilities to form Academic Support, Educator Support, Student 
Support, and Operational Support Teams dedicated to service to schools. 
For the past eighteen months since I became Secretary, our message to 
the field and education stakeholders has been, ``We are here to support 
you.''
  Working with Districts and State Policymakers to Improve Our Schools
    Another key ESSA-related change has been the introduction of 
individualized district superintendent goal-setting and summative 
conferences. Soon after the verification of Smarter Balanced and SAT 
results, I meet with each individual superintendent to discuss his/her 
district's and schools' results. Based on the state's academic targets 
for the Year 2030 (a year chosen because of the 2017 entering 
kindergartners' opportunity to pass through the educational system in 
the 13 years before 2030), each superintendent and I calculated the 
annual growth his/her district must make in order for the state to 
reach its academic goals. Recognizing his or her individual district's 
contribution to the state's overall achievement, the local 
superintendent in turn shares with and holds school leaders in their 
home district accountable for progress toward the district's academic 
goals. In addition, each superintendent selects a specific subgroup 
that warrants particular attention based on performance data. During 
the conferences I include such directed questions as, ``How do you plan 
to increase third grade reading proficiency?'', ``What strategies to do 
you have for enhancing SAT scores?'' and ``What additional supports are 
you providing to your English learners?'' At mid-year we again meet to 
discuss progress toward the overall goals and engage in deep 
conversation about accomplishments and challenges. A final query is 
always, ``What can the Department do to be of greater support?'' This 
concept of superintendent accountability is a relatively new one in our 
state. Yet, the overarching theme of support is being embraced from the 
leadership to the local level, and ESSA has greatly facilitated this 
approach.

    During these conversations superintendents frequently mention 
groups with which educators have not been given enough professional 
learning to support. In addition to English learners, students with 
disabilities and those who are economically challenged, educators have 
more recently cited concerns about supporting trauma-impacted students. 
As a result of these conversations, the Delaware Department of 
Education is working with higher education institutions to develop a 
teacher pipeline that is prepared to enter classrooms with the skills 
necessary to best serve our diverse student population. These skills 
include the knowledge of and experience in working with special 
education students, English learners, and those who have endured 
adverse childhood experiences. In fact, Delaware has launched a major 
initiative to introduce teachers and administrators throughout the 
state to and encourage the use of trauma-informed practices.

    The refreshing change from NCLB's focus on identifying and 
punishing schools to ESSA'S support model has helped to promote the 
redesign of the former silos, created by individual work groups, to a 
new synergetic team structure at the Department. This performance 
support team is composed of professionals focused on student, educator, 
and academic support focused on enhancing the overall success of 
schools. The law ensures every state will focus on improving low-
performing schools, yet gives states the opportunity to work with local 
educators, parents, civil rights advocates, and other stakeholders to 
determine the best evidence-based strategies to improve specific 
struggling schools. As Delaware fulfills the requirement of identifying 
both CSI and TSI schools in November, individuals within the 
performance support teams are working together to create a menu of 
evidence-based available supports that can be aligned with 
individualized plans developed jointly between the state and local 
education agencies/charters. No longer is a single office within the 
State Department of Education responsible for school improvement; 
rather a team is ready to come together, across areas of expertise, in 
an effort to address the specific and unique needs of each of our 
schools. In the spirit of collaboration and community, my agency is 
facilitating regular communication between and the solicitation of 
feedback from local education agencies, charters, and multiple 
stakeholder groups to build a more cohesive approach to continuous 
school improvement.

    Delaware's political leaders have embraced a role in our state's 
school improvement movement. Recognizing the plight of the state's 
struggling schools, state legislators passed a Fiscal Year 2019 (FY19) 
budget that funds math specialists for our state's lowest performing 
middle schools. Moreover, they allocated moneys to support the 
placement of reading interventionists in the lowest performing 
elementary schools. Acknowledging the impact of poverty on learning and 
of the steadily expanding English learner population in the state, the 
fiscal year 2019 budget also included six million dollars for 
opportunity grants that were made available to the forty-four schools 
whose student populations met the 60 percent poverty and/or the 20 
percent English learner criteria. Both traditional and charter schools 
have flexibility to invest these funds in the supports each deems most 
beneficial for its students.
                        Ongoing ESSA Challenges
    ESSA positives have been many and its negatives few. Despite 
careful planning and invaluable input from a variety of interested 
partners, Delaware has encountered a few challenges in implementing the 
law. Our design to include science and social studies proficiency in 
the academic achievement and progress sections of our accountability 
system failed to receive initial approval from the US Department of 
Education, even though Secretary DeVos has strongly encouraged states 
to ``think out of the box.'' Consequently, we were forced instead to 
relegate those two key subjects to the School Quality section of our 
accountability system. A second challenge has been the unavailability 
of a high school growth measure. Although we originally had hoped to 
use PSAT scores as the baseline upon which to measure growth toward the 
SAT, that strategy was determined to be statistically unsound so we 
were unable to pursue it. A third challenge involved a volatile 
reaction within our state to the proposed use of stars as a rating 
symbol on the new report cards. Local legislators, for example, argued 
that a two-star rating would send an unduly negative message because 
``No one would stay in a two-star hotel!'' The diverse group of 
stakeholders working on the project decided to use labels rather than 
stars to avoid unnecessary controversy.

    As Delaware journeys deeper into ESSA implementation, the 
Department acknowledges that the most significant obstacle, that of 
turning around our struggling schools, still lies ahead. The names of 
our CSI schools will be published within the next month. My team has 
been working on a plan that will emphasize the Department's provision 
of necessary supports to struggling schools rather than our intent to 
punish or demean them. Such an approach reflects the Department's 
transformed culture, our belief in collaboration, and our realization 
that each school's needs must be assessed and uniquely addressed. The 
Department will provide districts with assistance in completing needs 
assessments to determine possible evidence-based interventions and 
strategies, thought partnerships, professional learning opportunities, 
on-line resources, and connections to experts, partners, and networks. 
Together we will improve outcomes for our kids.
                               Conclusion
    Although Delaware's plan was the first to be approved, other states 
have also seized the opportunity to lead the way in implementing ESSA. 
As states and districts continue to advance in implementation, the 
spirit of ESSA will be more fully reflected in state and local systems. 
Throughout this process, educational leaders at every level are using 
the flexibility in ESSA to better meet the needs of all students, from 
every background. Since December 2015, states have worked hard to think 
differently about their schools and how they can better serve all 
students. They have asked for and taken seriously input from educators, 
administrators, parents, students, and community leaders, knowing that 
no plan can be successful without support and buy-in from the 
community. However, since these systems are complex, only time can 
reveal the benefits of full implementation.

    When the Senate voted overwhelmingly to approve ESSA, it was a vote 
of confidence in state and local educators and their ability to do what 
is right for kids. I reiterate my gratitude for allowing us the 
flexibility to implement ESSA in a way that best addresses the specific 
needs of pupils in each state and request that you continue to support 
us as we now fully implement the law to ensure every student's success.

    I am confident that states are taking advantage of the opportunity 
ESSA presents and will deliver better outcomes for all students. As 
state leaders, we don't consider this a job, it's our life's work. Like 
my colleagues here today, Delaware is committed to maximizing ESSA-
supported opportunities. We WILL make it happen. Our children deserve 
nothing less.
                                 ______
                                 
    The Chairman. Thank you, Dr. Bunting.
    Mr. Jeffries, welcome.

STATEMENT OF SHAVAR JEFFRIES, PRESIDENT, EDUCATION REFORM NOW, 
                           NEWARK, NJ

    Mr. Jeffries. Chairman Alexander, Ranking Senator Murray, 
and distinguished Members of the Committee.
    I appreciate the opportunity to testify before you on state 
implementation of Every Student Succeeds Act. My name is Shavar 
Jeffries and I am President of Education Reform Now, a national 
nonpartisan think tank and advocacy organization. We develop 
and advocate for policies intended to transform public 
education from pre-K through higher education, especially for 
those students who are ESSA's intended beneficiaries.
    I was born and raised in the South Ward of Newark, New 
Jersey by my grandmother, a public school teacher. I have been 
a civil rights lawyer and child advocate for 20 years. The 
opportunities I have had are a direct result of receiving a 
great education, and my life's work has been to ensure that all 
of America's children have that same opportunity.
    The theme of today's hearing, ``States Leading the Way,'' 
in too many ways remains more an expression of aspiration than 
a description of fact. Some states have been leaders.
    Mr. Chairman, under Governors Bredesen and Haslam, your 
home State of Tennessee has advanced many important policies 
that improve educational opportunities for all students.
    Senator Murray, our chapter in your home State of 
Washington has worked in coalition with other advocacy groups 
to increase school funding, including increases in teacher pay 
to help ensure every child has access to a qualified teacher.
    Yet alongside these islands of progress, we still see 
yawning achievement gaps that persist along lines of income, 
race, nationality, and disability.
    One example is Montclair High School in my home State of 
New Jersey, a racially diverse school with a student population 
that is half white, one-third black, one-tenth Hispanic. 
Overall test scores and graduation rates for the school are 
solid, yet black students among others at Montclair High lag 
behind their white peers in both math and reading proficiency 
by 30 percentage points and are thus significantly less likely 
to graduate, and significantly, therefore, less likely to 
pursue and achieve the American dream.
    Nonetheless, the state's first report card under ESSA found 
that black students at Montclair High were not even at risk of 
being an underperforming subgroup and Montclair, sadly, is not 
an isolated example.
    In enacting ESSA, Congress made its purposes explicit, to 
provide all children a significant opportunity to receive a 
fair, equitable, and high quality education, and to close 
educational achievement gaps. Congress made clear that this 
educational guarantee extends to specific subgroups of students 
who historically were denied that equal education opportunity, 
namely, low income students, students of color, English 
language learners, and children with disabilities in 
particular.
    While it is true Congress chose to give states significant 
flexibility in fulfilling ESSA's purpose, Congress at the same 
time made clear that certain guardrails were nonnegotiable. 
These guardrails spelled out unequivocally in the statute 
include the following:

    Differentiating schools based on the performance of each of 
those subgroups;

    Identifying schools for targeted support and improvement 
when those subgroups are not meeting state defined academic 
proficiency goals;

    Identifying schools for additional targeted support and 
improvement when any subgroup performs at a level equal to the 
bottom 5 percent of schools in the state; and,

    Ensuring that all indicators in the state accountability 
systems are the same statewide so that we do not have different 
standards for different populations of kids.

    On these and other issues, some state plans are exemplary. 
The District of Columbia, for example, differentiates schools 
on each indicator for each subgroup just as the statute 
requires, and even goes beyond ESSA by stipulating that 25 
percent of a school's rating is based on subgroup performance.
    Other state plans, however, clearly violate the statute. 
Arizona, for example, permits individual school districts to 
choose which assessments will apply for low in performing 
schools despite ESSA's specific mandate otherwise.
    ESSA does broadly defer to states regarding the remedies a 
district ought to use to address any achievement deficits that 
are found particularly those with respect to schools that are 
needing an improvement, although ESSA is clear that those 
interventions ought to be evidence based.
    Yet these decisions, of course, are among the most 
fundamental in ensuring that ESSA's core purpose, providing a 
fair, equitable, and quality education to all that will close 
achievement gaps is, in fact, achieved.
    We ask that as the work of this Committee continues that 
you monitor this process closely in addition to those areas 
where that there is a clear, explicit Federal role and consider 
course corrections in those states, districts, and schools that 
are falling short.
    The driving purpose of Title 1 is equity. Right? That was 
the entire purpose for the statute and it is incumbent upon 
this Congress to work with the states to make sure that the 
legacy of inequity that so many young people in this country 
have experienced is remedied, and that is the bargain that the 
states struck with the Federal Government in taking the 
billions of dollars in Federal support. That they, in fact, 
take the affirmative steps required to address the achievement 
gaps that Congress was so concerned about in enacting ESSA.
    Thank you very much.
    [The prepared statement of Mr. Jeffries follows:]
                 prepared statement of shavar jeffries
                              Introduction
    Chairman Alexander, Ranking Member Murray, and distinguished 
Members of the Committee, I appreciate the opportunity to testify 
before you today on state implementation of the Every Student Succeeds 
Act (ESSA).

    My name is Shavar Jeffries, and I am President of Education Reform 
Now (ERN). ERN is a non-partisan think tank and advocacy organization 
with a national office here in DC and chapters in eight states. We 
develop and advocate for policies intended to transform public 
education from pre-K through higher education, especially for those 
students who are ESSA's intended beneficiaries.

    I was born and raised in the South Ward of Newark, New Jersey by my 
grandmother, a public-school teacher. I have been a civil rights lawyer 
and child advocate for 20 years. The opportunities I have had are 
directly attributable to the quality of education I received, and my 
life's work has been to ensure that all American children--especially 
those who come from low-income, racially diverse communities like my 
own--have the same opportunity. I appear today to discuss the good work 
some states are doing in meeting this challenge as well as the many 
states that still have much work to do.
                     The Purpose of Today's Hearing
    The theme of today's hearing--``States Leading the Way''--in too 
many respects remains more an expression of aspiration than a 
description of fact. It is true, Mr. Chairman, that some states have 
been leaders. Your home state, Tennessee, has advanced policies that 
ensure greater numbers of kids have access to quality schools that 
achieve better outcomes for all students. Under Governor Phil Bredesen, 
a Democrat, and his successor, Governor Bill Haslam, a Republican, 
Tennessee has been a model for leveraging Federal initiatives and 
funding streams, including President Obama's Race to the Top, in 
support of its own priorities.

    Likewise, Senator Murray, in your home State of Washington, our 
chapter there has worked in coalition with advocates and state 
legislators toward the goal of ``full funding'' for public education as 
required by the state constitution. Washington has made significant 
progress on funding equity and differential pay for educators so that 
schools serving students with the highest needs get their fair share of 
the most qualified teachers, especially those in key shortage areas 
like STEM and special education, contrary to the reality in too many 
states where the students most in need have teachers with the least 
knowledge and expertise.

    Yet alongside these islands of progress, we still see too many 
states in which yawning achievement gaps persist along lines of income, 
race, nationality, and disability as well as deficits in equal 
educational opportunities that contradict the core purposes of ESSA.
 An Example of the Importance of Subgroup Accountability at a Diverse 
                              High School
    To illustrate, let me talk to you about Montclair High School in my 
home-State of New Jersey. Montclair was and remains today a racially 
diverse school--half White; one-third Black; and one-tenth Hispanic. 
Overall test scores and graduation rates for the school are solid, but 
those overall numbers mask stark achievement gaps showing that students 
at Montclair High have very different school experiences based on the 
color of their skin.

    The proficiency gaps between Black and White students in both 
English Language Arts and Math are on the order of 30 percentage 
points; Black students are five times more likely to be suspended than 
White students; and Black students are substantially less likely to be 
assigned to honors or Advanced Placement courses as White students. The 
New Jersey State Department of Education, however, doesn't recognize 
the yawning and persistent gaps at Montclair High School--where Black 
students have not made significant progress and where outcomes on most 
indicators last year slightly declined--as worthy of its attention. The 
state's first report card issued last year under ESSA deems that Black 
students at Montclair High are not even at-risk of being an 
``underperforming subgroup'' let alone identify Montclair as a school 
in need of what ESSA defines as ``targeted assistance.''

    The Montclair example, sadly, is typical: millions of low-income 
students; students of color; students who speak English as a second 
language; and students with disabilities likewise experience, in too 
many states, segregated educational experiences, even within the same 
school, that run counter to the purposes of Federal law. For these 
subgroups of students, no state is making consistent and significant 
gains across all grades and subjects for the very populations of 
students who historically have experienced educational inequity and 
whose interests lie at the heart of Title I. Far too many states are 
not even trying.
                          The Purpose of ESSA
    In enacting ESSA, Congress made its purposes explicit:

        ``[T]o provide all children significant opportunity to receive 
        a fair, equitable, and high-quality education, and to close 
        educational achievement gaps.''

    Congress made clear that this educational guarantee extends to 
``all children''--not some; not the rich; not those well positioned to 
manipulate the system--but all children. And in driving home this 
equity mandate, Congress prioritized specific subgroups of students who 
historically had been denied equal opportunities: low-income students; 
students of color; students who speak English as a second language; 
children with disabilities; and, others such as children in foster 
care, those who are homeless, and the sons and daughters of migrant 
workers.
             What the Statute Actually Says on State Plans
    In pursuing this statutory goal of providing an equitable education 
to all, Congress chose to give states a great deal more flexibility. 
The arguments we had within and between both political parties were 
about how much flexibility to provide to states and about which 
critical elements warranted Federal guardrails. Neither side got 
everything they wanted. That, after all, is what's required to break 
political gridlock and get things done. This was no small feat on your 
part. You succeeded after several attempts in past years did not.

    We and our coalition members supported the final conference report, 
as did the vast majority of Members of Congress, because it included 
key ``bright-line'' provisions to ensure that states and school 
districts use Title I dollars to fulfill ESSA's intended purposes. The 
flexibility provided to states and localities in many other areas makes 
the guardrails that Congress chose and agreed to put into place of 
paramount importance.

    We know there are states that have avoided, in some cases defiantly 
so, complying with Federal education law when it comes to almost every 
group of students for whom the Federal Government has tried to level 
the playing field over the past five decades, especially: girls and 
women; students of color; English Language Learners; low-income 
families; immigrants; and, persons with disabilities. Not too long ago, 
the U.S. Secretary of Education sat before you and admitted, only 
grudgingly, under questioning from Senator Murphy, that she had 
previously misspoken about the responsibility of schools to educate 
every child regardless of their citizenship status even though this has 
been an issue of settled law for almost four decades pursuant to the 
U.S. Supreme Court decision in Plyler v. Doe back in 1982.
                  Some States Are Not Leading the Way
    The best I can say about where we are now is that when it comes to 
states leading the way on ESSA, the jury is still out. But there 
already have been some troubling developments.

    We at ERN have put together a list of more than 30 sections of the 
law that contain what we call ``bright line'' provisions where Congress 
made its intent crystal clear and yet the U.S. Department of Education 
approved state plans that fail to adhere to them. This is not an 
exhaustive list, nor are these provisions sufficient for meeting all of 
the law's stated purposes. But these are provisions that Members of the 
Committee and your colleagues in both chambers deemed necessary, by 
overwhelming margins. I obviously can't address all of these here 
today, but they include:

        <bullet>  Differentiating schools, in part, based on the 
        performance of each and every subgroup.

        <bullet>  Identifying schools for what the statute calls 
        ``Targeted Support and Improvement'' in cases where students in 
        a school are not meeting state-defined goals, regardless of how 
        their school is doing overall.

        <bullet>  Identifying schools for what the statute calls 
        ``Additional Targeted Support and Improvement'' in which any 
        subgroup performs at a level equal to the bottom 5 percent of 
        schools in the state.

        <bullet>  Ensuring that all indicators used in state 
        accountability systems are the same ones used statewide, for 
        each and every child.

        <bullet>  Including student attainment of grade-level 
        proficiency, along with academic growth, as a factor in 
        differentiating schools.

    Some states have plans that meet or exceed one or more of these 
statutory requirements. The District of Columbia, for example, has a 
good plan that meets statutory requirements on differentiating schools 
based on each indicator for each subgroup. The District of Columbia 
actually went beyond what was required in the statute, based on 
recommendations put forth by our local chapter in coalition with other 
civil rights and advocacy groups, such that 25 percent of each school's 
overall accountability rating will be based on subgroup performance on 
each indicator.

    There are also states that have plans approved by the U.S. 
Department of Education that violate one or more of key statutory 
provisions. It is important to note that opinions about adherence to 
the law do not seem to be a matter of partisanship. Former House 
Education and Workforce Committee Chairman John Kline (R-MN) went 
public in August with his concerns about state plans that violated key 
statutory provisions saying:

    ``During the eight long years our team spent working to pass this 
bill, no topic was more hotly debated than that of annual testing. . . 
In the end, we arrived at a fair and sensible compromise in the law: 
Keep the requirement that the same academic assessments [be] used to 
measure the achievement of all public elementary school and secondary 
school students in the state. . . [and be flexible in other areas]. . . 
However, Arizona and New Hampshire recently passed laws \1\ that 
violate ESSA by permitting individual school districts to choose which 
assessments to administer . . . such violations undermine ESSA in its 
entirety.'' \2\
---------------------------------------------------------------------------
    \1\  Cariello, Dennis M. and Hudalla, Nicholas M. (July 2017). 
Achieving a Complete Understanding of Statewide Student Academic 
Achievement: The Legal Aspects Concerning State Assessment Laws in the 
Every Student Succeeds Act. Retrieved from: https://edex.s3-us-west-
2.amazonaws.com/Final%207-26-17%20ESSA%20White%20Paper.pdf
    \2\  Kline, John. (August 2017). An ESSA Co-Author Weighs In on 
Accountability: The Ed. Department must step up to enforce ESSA. 
Retrieved from: https://www.edweek.org/ew/articles/2017/08/28/an-essa-
co-author-weighs-in-on-accountability.html

    The U.S. Secretary of Education went on to approve both of those 
plans without asking these states to change their policies. On our 
comprehensive list of key statutory provisions is a list of states that 
have approved plans that are clearly in violation of each of the 
provisions I cited and others. I cannot cover all of them in the space 
allotted for my testimony but I'd be happy to discuss this further with 
any of you here or after the hearing.
                      Keeping Our Eye on the Prize
    I want to close with an additional note on an area that the law 
leaves wide open and that is the types of interventions states, 
districts, and schools themselves must mount under the various 
categories under the law. The law lays out a fairly complicated set of 
roles and responsibilities for each level of government in deciding how 
to intervene in any particular school, but the law is clear that the 
Federal Government has no role in making those determinations 
whatsoever beyond provisions that they be ``evidence-based,'' however 
states and districts choose to define that term.

    I'm not going to debate the wisdom of that structure because the 
law, present and past, is complicated and because of that, there are 
many different interpretations of what was required prior to ESSA and 
what role those requirements, or the lack thereof, played in the 
success of efforts to either turn schools around or create new choices 
that provide better opportunities for students and families.

    At the end of the day, however, these decisions--for which, again, 
it is clear, there is little to no Federal role--are the most important 
ones that will be made across this country over the next several years. 
History indicates that decisions will often be made based not on what 
is in the best interests of students, but rather what the path of least 
resistance is for those charged with carrying them out, despite 
whatever good intentions they, and I'm sure my fellow panel members, 
have. I ask that you at the very least monitor this process closely and 
make course corrections that provide incentives--if not requirements--
for meeting the underlying purposes of the ESSA statute.

    I look forward to discussing these and other issues with the 
distinguished Members of this Committee today and in the future in the 
hope that we, as a Nation, can work together to provide every child 
with the opportunity for a world class education so that every student 
truly succeeds to the utmost of his or her potential.
                                 ______
                                 
    The Chairman. Thank you, Mr. Jeffries.
    Ms. Spearman, welcome.

  STATEMENT OF MOLLY SPEARMAN, SUPERINTENDENT, SOUTH CAROLINA 
             DEPARTMENT OF EDUCATION, COLUMBIA, SC

    Ms. Spearman. Good morning, Chairman Alexander, Ranking 
Member Murray, my friend and Senator Tim Scott, and Members of 
the Committee. And, if I may, a surprise guest for me this 
morning, our State High School Principal of the Year, Luke 
Clamp, and a finalist for the National High School Principal of 
the Year.
    I am very honored to have this opportunity to talk with you 
today about what is going on in South Carolina. I can assure 
you that I understand the rewards and challenges of serving in 
the classroom as a music teacher for 18 years and a principal; 
serving as a state legislator, and having to make tough policy 
decisions; and now as a state elected Superintendent of 
Education running an agency with 1,000 employees and trying to 
show progress in a system of 780,000 students, 55,000 teachers, 
1,200 schools, and a diverse 82 districts ranging from world 
class communities where you have everything at your fingertips 
to the rural area where I live where school is the only job in 
town and Wal-Mart is about 30 miles away.
    We have held over 120 ESSA stakeholder meetings in our 
discussions and the message was clear. Educators complained 
that they were exhausted and frustrated with the one academic 
assessment model in No Child Left Behind.
    Our business leaders explained to us that while we had been 
working on No Child Left Behind, a whole new industry of high 
skilled manufacturing jobs had arrived in South Carolina and we 
had over 60,000 jobs available with very few of our students 
prepared to take those jobs.
    Parents said they did not understand because their students 
had done very well in our elementary and high schools, and had 
graduated college, but they had arrived back at home living in 
the basement with no job and a lot of college debt. What had 
happened? We had a big problem.
    A new commitment was born. We call it the Profile of the 
South Carolina Graduate. That conversation started with a group 
of 12 superintendents. It quickly expanded to the State Chamber 
of Commerce, local chambers, school board members, PTA members, 
educators, and now it has been adopted by our General Assembly 
and signed by our former Governor Nikki Haley.
    It is in law and it simply means that we, in South 
Carolina, are committed to supporting every student. That when 
they graduate one of our high schools, that they are prepared, 
not just with content knowledge, but now with the skills and 
characteristics that they need to live a successful life in 
their personal pathway. ESSA allowed us the flexibility to 
design an accountability model that matched our profile of the 
graduate.
    We now use multiple measurements for college and career 
readiness. We give schools credit for industry credentials, 
apprenticeship programs, work-based environments, as well as 
dual credit, A.P., I.B., whatever the student completes.
    As a proud military state, it is now not a lesser choice, 
but we recognize students who score ready on ASVAB, and those 
who enlist in the military or go to a military academy.
    Secondly, I am very proud that ESSA has allowed us a 
renewed commitment to the areas like where I live, underserved 
communities where not just education is a challenge, but jobs 
are a challenge, health care is a challenge, special credit to 
the Opportunity Zones championed by Senator Scott, and included 
in your tax cut and job legislation.
    Now, we have the Department of Commerce in our state 
working side by side with us in the same communities to fix 
education, but to also bring much needed jobs to the parents 
and opportunities for our students in these very rural areas.
    For us in South Carolina, we built a four tiered support 
system for these schools. We call it communities of practice 
model. We know that we are wasting our time, and energy, and 
taxpayer dollars if we do not build a sustainable program in 
those rural communities with capacity. So when we leave, the 
work can still go on.
    We use a model of transformation coaches. These highly 
skilled educators are the boots on the ground in these schools 
every day. They are there to give professional development. 
They work side by side with the principals and the teachers to 
give them the knowledge and skills that they need to serve 
these students.
    Recently, I was visiting one of these areas. In fact, we 
are now managing three districts in South Carolina, and I asked 
20 tenth graders, ``What do you want to see changed in your 
schools?'' Well, the hands popped up all over and the first 
young African American gentleman said, ``I want to be a welder, 
but we do not have a welding program in our district.'' A young 
lady said, ``I want to be a nurse, but we do not have a health 
science class in our school.''
    I am proud to tell you that through the flexibility 
provided in ESSA funding, and our model of collaborative 
support, both of those students and their classmates are now 
involved in a career center. We had to move them to a nearby 
district for that, but it is working. We know for those high 
risk, underserved students, if we can get them involved in a 
career in technology program, their graduate rate jumps to 92 
percent.
    As Senator Murray said, it is hard work. It is easy to say 
we are going to have every child prepared, but it is hard work 
and I am here to represent the people who are out there doing 
that hard work every day.
    We cannot do it alone as teachers. We have to have your 
support. We have to have parents' support, the business 
community.
    I want to thank you for giving us the flexibility to do 
what is needed in these individual communities. Without the 
flexibility of ESSA, these triumphs that we know are going to 
happen could not be. So thank you very much.
    [The prepared statement of Ms. Spearman follows:]
                  prepared statement of molly spearman
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee:

    Thank you for inviting me to present the opportunities the Every 
Student Succeeds Act (ESSA) has allowed the State of South Carolina as 
compared to No Child Left Behind (NCLB). As a former public school 
music teacher and principal, I have had the experience of teaching in 
some of our most affluent school districts with every resource 
imaginable from keyboard labs, guitar labs, and a well-equipped theatre 
to traveling 18 miles away to my home district of Saluda where I found 
myself standing in an old, non-air-conditioned portable classroom with 
an upright piano and had to bring my own record player. Previously 
serving four terms in South Carolina's House of Representatives and now 
as a statewide elected constitutional officer, I know firsthand the 
challenges of ensuring every student receives the opportunities they 
need and deserve through the public education system. In my current 
role, I have observed and been part of the education policy pendulum 
swinging back and forth over many years. This gives me the unique 
opportunity to present to you the positive changes that ESSA has 
afforded our state.

    South Carolina previously operated under two accountability 
systems--a state system and the Federal NCLB. The dual system was very 
confusing in our state and was clearly not a best practice as our work 
was not aligned with a single goal. With the flexibility offered under 
ESSA, and the requirement of an outcomes-based system, South 
Carolinians are now united in our efforts and our commitment to 
accountability is clear. We measure how well all of our schools are 
doing in preparing every graduate for college-and career-readiness and 
citizenship, and we shine a light on areas where we need to improve to 
ensure achievement gaps are not masked or ignored. All of our work is 
centered on the Profile of the South Carolina Graduate, a document, 
which outlines the knowledge, skills, life, and career characteristics 
that every graduate should possess. This work began with a group of 
district superintendents and quickly grew to involve the South Carolina 
Chamber of Commerce and adoption by education stakeholder groups and 
local school boards prior to being put into statute by South Carolina's 
General Assembly and signed by then Governor Nikki Haley. Another 
important change for South Carolina made possible by ESSA is the use of 
multiple measures--not just the ``bubble-in'' assessments required 
under NCLB. This holistic approach creates a common-sense 
accountability system that considers all important factors and gives 
schools credit for performance outside of just one high-stakes test, 
all while ensuring meaningful goals and targeted supports for all 
schools.

    This change has ushered in the addition of a student academic 
progress, or growth model, as an indicator in our accountability 
system. Currently, we are using the Education Value-Added Assessment 
System (EVAAS) for grades 3-8 in English language arts and mathematics. 
We believe that using an academic progress measure is fair and a 
motivation for teachers who often find students at very different 
levels of readiness in their classrooms.

    After robust discussion that included statewide town hall meetings, 
webinars, and public hearings, South Carolina chose to include a 
positive and effective learning environment as a measure of school 
performance at the high school level. Stakeholder feedback involving 
students, parents, and education advocates, such as members of the 
Columbia Urban League and South Carolina Council for Exceptional 
Children, who strongly suggested a focus on improving the climate of 
schools through safe, healthy, and positive environments. Currently, 
surveys are being used to fulfill the reporting requirements. Our 
stakeholders feel strongly that initiatives addressing character 
building, leadership development, creativity, and the arts must be a 
part of a successful school. We recognize our ESSA plan currently only 
requires this to be measured at the high school level. We are committed 
to working with parents and educators to find a path forward to reflect 
this priority in other grade levels in the future.

    Hearing from small businesses, local and state chambers of 
commerce, and military liaisons, South Carolina recognized the 
importance of students being prepared for both college and the 
workforce in our ESSA plan. Our approach to ESSA incentivizes career 
readiness, as schools are rewarded for supporting and preparing 
students in work-ready skills. South Carolina high schools are awarded 
points for career readiness based on student completion of an 
apprenticeship, work-based learning opportunity, career program 
pathway, industry credential, or a silver rating or above on a career 
readiness assessment. We are proud that our system also recognizes 
military service readiness through success on the Armed Services 
Vocational Aptitude Battery, or ASVAB.

    Officials at the United States Department of Labor have 
continuously recognized South Carolina as a national leader in 
apprenticeship programs, with over 226 programs that are youth-
specific. Recently, two young men completed a mechanics apprenticeship 
at their local school bus shop--the first of its kind in the Nation. 
Upon high school graduation, they both have a high-skilled, well-paying 
manufacturing career awaiting them: one working full-time at BMW and 
another working part-time at a diesel engine plant while the company 
pays for him to obtain his technical college degree. Stories like these 
are proliferating across our state because our ESSA accountability 
system supports the needs and possibilities of the South Carolina 
workforce.

    Continuing the focus of NCLB upon student subgroups, our ESSA plan 
requires that we must keep our focus on and serve all students. We are 
keenly aware of the importance of understanding and addressing both the 
barriers and successes of our most vulnerable students and subgroups in 
South Carolina. We have increased transparency in subgroup reporting by 
lowering the masking threshold (or n count) to 20. This will increase 
the visibility of subgroups in schools where none had been previously 
identified under NCLB. This, in conjunction with the increased 
accountability reporting, will shine a light on the performance of the 
subgroups across all metrics in the accountability system. South 
Carolina will continue to account for the performance of student 
subgroups in its identification of schools in need of targeted support 
and improvement.

    In South Carolina, schools identified as Targeted Support and 
Improvement (TSI) Schools will consist of any school with a 
``consistently underperforming'' student subgroup that has performed at 
or below all students at the bottom 10 percent of schools statewide, 
across all indicators, for three consecutive years. This strategy 
captures more students than ESSA requires.

    Schools with the lowest performing subgroups will be identified for 
Additional Targeted Support and Intervention (ATSI) if the scores of 
any subgroup(s) are lower than the ``all students'' performance of the 
highest ranking Comprehensive Support and Improvement (CSI) School. In 
other words, when a subgroup performance mirrors that of the lowest 5 
percent of schools in our state, we will work closely with every 
district to intervene and provide technical assistance. From these 
schools that are identified as ATSI, schools identified as having a 
``chronically low-performing'' student subgroup(s) across all 
accountability indicators for two consecutive identification cycles, or 
6 years, will then be moved from targeted support to our CSI category. 
Our expectation is not only for districts and schools to address the 
performance of these subgroups, but to sustain their improvement over 
time, giving these students an equal opportunity to meet the vision for 
every student in our state found in the Profile of the South Carolina 
Graduate. Measuring the performance of subgroups across all 
accountability metrics will emphasize South Carolina's commitment to 
excellence for all students.

    One important strategy we have implemented to support our lowest-
performing schools is the development of a team of transformation 
coaches to build capacity and provide targeted assistance in the 
schools that need it most. Transformation coaches support South 
Carolina's educators and school leaders by being ``boots on the 
ground'' daily in our lowest performing schools to strategically guide 
their efforts. These coaches, who are fully funded by and employees of 
the state, range from a former national principal of the year to strong 
classroom and district award-winning leaders. They are selected based 
on their content experience and leadership qualities to be agents of 
support and change. They truly have answered the call to serve in our 
most underprivileged areas, often times located in rural communities 
nearly 40 miles from the nearest Walmart.

    In South Carolina, we strongly believe schools will only be able to 
achieve excellence when the performance of all students, including 
those in historically underserved subgroups, meet expectations. This 
also gives us a unique opportunity to blend our efforts, particularly 
for students with disabilities, in a braided approach with our work 
under both ESSA and IDEA.

    As an example of our commitment to high standards and 
accountability, the state recently took over management of three school 
districts in South Carolina. One of those, Florence School District 
Four, is a very small, rural, high poverty district where students were 
performing at the lowest levels in our state and had little opportunity 
for career skill development. The district was financially unstable and 
the future was bleak at best for these students. Now under state 
management, a new model of shared services is underway. We have 
contracted with two neighboring school districts to provide district 
level functions at a cost-savings of over $600,000, representing a 50 
percent administrative cost reduction for the district. These savings 
are being pushed down to the classroom to provide more opportunities 
for these rural students. I visited the district's high school in May 
right before the state-takeover and asked a group of students what they 
needed in their school. The first hand was from a 16-year-old male 
student who said, ``I want to be a welder, but we have no welding 
program.'' Another student, young lady said, ``I want to be a nurse, 
but we have no health science equipment.'' One of my proudest 
achievements is that these young people are enrolled this year in 
welding and health science, in addition to the challenging academic 
content that all students receive.

    On behalf of my staff at the South Carolina Department of 
Education, I commend your congressional staff and the staff at the 
United States Department of Education as both have been extremely 
responsive to our questions and needs. Participating in the U.S. 
Department of Education State Support Network, as well as supports 
provided by the Council of Chief State School Officers, have been very 
helpful as we designed and are now implementing our ESSA plan.

    Finally, I want to thank each of you for your service to the 
students, parents, and educators in South Carolina and across our 
country. As a former legislator, I also appreciate the role this 
Committee plays in monitoring the progress of this new law and how it 
is being implemented across states. ESSA has moved the education 
pendulum in the right direction of accountability, support, creativity, 
and flexibility which benefits everyone. Thank you.
                                 ______
                                 
    The Chairman. Thank you, Ms. Spearman.
    We welcome the South Carolina Principal of the Year.
    Ms. Spearman. Thank you.
    The Chairman. We will go to Senator Scott.
    Senator Scott. Thank you, Mr. Chairman.
    Thank you to the panel for being here and Molly, good to 
see you again.
    Ms. Spearman. Good to see you.
    Senator Scott. I hope you are doing well.
    Ms. Spearman. I did not see you come in.
    Senator Scott. Yes, ma'am. I am sorry I missed your opening 
comments. I was not here for the beginning of the Committee. I 
was in my Armed Services Committee where we are working on a 
couple of nominations as well.
    But I did want to say about Molly Spearman, our amazing 
Superintendent of Education, that your dedication and 
commitment to public service is unrivaled. Your passion for 
education is, perhaps, a place where I would like to reinforce 
your commitment to public service.
    I know that when you started from your farm in Saluda 
County.
    Ms. Spearman. Dairy farm. Yes, sir.
    Senator Scott. The more I think about farmers, the more I 
realize that the day does not start at 7:30, or 8:30, or 9:30, 
but your day starts at 4:30 or 5:00.
    That work ethic that you learned on the farm certainly has 
transferred into your passion and your desire to serve people 
in the public forum. And that your commitment to education is 
not simply a commitment as the Superintendent of Education.
    It started as a teacher having a positive interaction and a 
passion, a love for children reinforced that commitment. And 
then as the assistant principal, your ability to see from a 
management perspective how to engage the students, how to 
engage their parents, and how to make sure that everybody was a 
part of the glue that makes schools work.
    Then as a legislator, serving in the State House, God bless 
your soul for that.
    Ms. Spearman. Amen.
    Senator Scott. I only served one term; that was enough for 
me, but it is really hard work, important work that you were 
inspired to focus your attention even as a state legislator on 
education, on making sure that the quality of life experienced 
by your kids throughout the state would be benefited and 
impacted positively by your service.
    Now, certainly, as a Superintendent of Education, you 
continue an amazing career in public service. So thank you very 
much for representing kids so well. Thank you very much for 
representing parents and the passion that they have for their 
own children so well. And thank you so much for being an 
amazing example of what South Carolina produces.
    Ms. Spearman. Thank you.
    Senator Scott. My question for you, I will start off with 
the issue that you mentioned, and thank you for mentioning the 
Opportunity Zones in your opening comments.
    One of the things that I had in mind when I designed the 
opportunity zoning legislation was finding a way to bring more 
resources into distressed communities so as to make sure that 
those kids, kids like myself--when I was a 7-year-old kid 
living in single parent household disillusioned--that there 
would be the type of resources that would allow for me to see 
the full expression of my capacity. I think that school 
construction, seeing that as a real opportunity in Opportunity 
Zones, I hope it manifests.
    Can you speak at all about the passing of the tax 
legislation, providing more resources, and how schools, or the 
charter schools or private schools, would benefit from that?
    Ms. Spearman. Yes, sir, and thank you for your kind 
remarks. And likewise, we are very proud of your service.
    I want to thank you because I know that you take time to go 
and visit schools whenever you are home, and it means so much 
because you are an inspiration to many of our students.
    You are right. Education cannot solve the problems in some 
of these distressed communities alone, but when I go and visit 
there, the most precious, well-mannered children with dreams 
some of them have never seen all the jobs that are available.
    The other ``Ah-ha!'' that has come to me that when I have 
business leaders come in to me or if it is health care folks to 
say where they feel like they need to go and work, as with the 
Department of Commerce in South Carolina, and when they put the 
map down, it is the exact same place where the education 
challenges are.
    We are working very closely with the Department of 
Commerce. They are there in Timmonsville, which is a small, 
rural area in Florence County. We have a renewed relationship 
now with a Honda factory that has moved in.
    Senator Scott. Yes.
    Ms. Spearman. They are opening up apprenticeships or 
internship programs for students to go in and not only see the 
jobs and the teachers to see the jobs, but experiment with 
those. So it gives hope and that is what I see in these 
students.
    But the other thing, Senator, that I see is that ESSA has 
allowed us to make work a cool thing again. We had gone, the 
pendulum, so far that everything was based on a college 
entrance exam, and that is great for many people.
    But we need workers who show up to work on time. We need 
workers who can get along with each other working along with 
our business and industry. That is what I see has improved so 
much with ESSA, and designed into our accountability model, and 
goes hand in hand with what is going on in our Opportunity 
Zones.
    Senator Scott. Thank you.
    The Chairman has been kind enough to extend me an extra 
minute. I appreciate that, sir.
    The Chairman. Well, sure.
    [Laughter.]
    Senator Scott. Thank you.
    The Chairman. Then I will have to give Senator Murray an 
extra minute.
    Senator Scott. We talked about the importance of bringing 
more resources into distressed communities. We talked about the 
power of ESSA to have more flexibility without any question.
    When we look in South Carolina and Orangeburg specifically, 
we have a charter school there, the High School for Health 
Professionals in Orangeburg. It is in an economically 
distressed community. But what we are seeing here is that in a 
distressed community, where I believe that your ZIP Code should 
not determine the quality of your education, we are seeing 
specifically the exact opposite that we have heard about 
throughout the country, and specifically home in South 
Carolina.
    We are seeing, in 2017, 100 percent graduation rates, 100 
percent college or military acceptance rates, and 70 percent of 
the students went into college with some type of scholarship. 
This is the kind of success we need everywhere around the 
country and you are highlighting a part of what makes that 
possible at home in South Carolina.
    I know you are a Bearcat and so as a Lander University 
Bearcat, you cannot go to Lander University if you do not 
finish high school.
    Ms. Spearman. Right.
    The Chairman. We will be glad to have a second round of 
questions, if you will state your question and then we will go 
to Senator Murray.
    Senator Scott. Thank you very much.
    How does our plan enable growth among successful charter 
schools like the High School for Health Professionals and how 
can we foster increased enrollment in, and replication of, 
successful schools?
    The Chairman. Senator Scott can ask that----
    Senator Scott. For the record.
    The Chairman. ----For the record----
    Senator Scott. Yes, sir.
    The Chairman. ----Or he can come back in a second round. I 
will be glad to give him plenty of time to ask it.
    Senator Scott. Thank you for your indulgence.
    The Chairman. We have other Senators waiting.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. I thank 
all of our panelists today.
    Mr. Jeffries, let me start with you. For over a year, I 
have raised concerns about Secretary DeVos' implementation of 
ESSA, specifically approving state plans that do not comply 
with all of the law's equity guardrails, including the subgroup 
accountability and school identification. The law really is a 
series of building blocks, each phase provides a foundation for 
the next phase of implementation.
    If in Phase 1, State Plan Approvals, if it is flawed and 
implemented incorrectly, that flawed implementation will then 
necessarily impact the implementation of the next phase of the 
law, which is School Improvement.
    Talk to us about how the failure to correctly implement 
subgroup accountability and school identification impacts 
school improvement, and what that means for students who are 
sitting in our classrooms today.
    Mr. Jeffries. Thank you, Senator.
    That failure fundamentally defeats the core purposes of 
ESSA. Congress was very clear and explicit. That is saying that 
the foundational purposes of ESSA were to ensure that all 
children have a significant opportunity for a fair, equitable, 
and quality education that closes achievement gaps. States 
simply cannot close achievement gaps if they do not even know 
they exist.
    To ensure that this was not the case, Congress was very 
explicit to say there must be subgroup differentiation by the 
core subgroups for which we have had a long history, sadly, 
where certain populations of young people simply have not had 
access to educational equity. That is low income children, 
children who speak English as a second language, children of 
color, children with disabilities.
    We have many states that simply have decided not to comply 
with that mandate. We have some states that simply do not 
differentiate by subgroups at all. We have some states, like 
Arizona, that differentiates by subgroups in Grades 3 through 
8, but not in high school.
    We have several states--Connecticut and Massachusetts, 
Mississippi and New Mexico--that have what we call ``super 
subgroups''. They just group all four subgroups into one 
omnibus subgroup, which means those states have no capacity to 
differentiate based on disaggregated data about whether some of 
those subgroups do well or not.
    Senator Murray. Correct.
    Mr. Jeffries. In any event, without the subgroup data then 
you cannot then craft remedies that are tailored to the 
particular deficits that need to be addressed.
    Senator Murray. Thank you. I think that outlines it 
exactly. I really appreciate that.
    Let me talk about another issue that is really important to 
me. It is important to me as a mother, as a grandmother, as a 
former preschool teacher, as a United States Senator, and that 
is the issue of gun violence.
    I believe that Congress was very clear when we passed the 
bipartisan Every Student Succeeds Act that the Title IV Part A 
program was intended to be used for purposes like helping more 
children get access to mental health care or providing 
additional programming in STEM or the arts. Not for purchasing 
weapons.
    As I said in my opening statement, unfortunately Secretary 
DeVos is ignoring our intention and allowing states and school 
districts to purchase firearms and firearm training, actually, 
with ESSA funds.
    Mr. Jeffries, I wanted to ask you, can you tell me about 
some of the consequences, including for students and for staff, 
when firearms are brought into school buildings?
    Mr. Jeffries. Well, absolutely.
    First Title IV, as the Senator pointed out, is designed to 
ensure that kids are actually educated well so that core 
educational services in particular in Title 1 schools, kids are 
often now going without: going without access to STEM support, 
going without access to technological supports, going without 
access to mental health and other types of services, services 
that they do not already have enough money for. So to divert 
money into sending teachers to gun ranges really is 
preposterous.
    The idea that we are going to have untrained teachers 
walking around schoolhouses and not using Title 1 dollars to 
learn how to teach Fifth Grade fractions better, but to go to 
gun ranges and to see if they can figure out whether they are 
capable of wielding firearms in a school building really just 
feels absurd on its face.
    We see in so many instances that trained security personnel 
too often are shooting unarmed people unjustifiably.
    The idea that teachers--who really do not have free time 
and oftentimes are underpaid and have their hands full with the 
professional development support they need so they can actually 
teach better--we are going to send them for some random number 
of hours to gun ranges, and believe they will then be equipped 
with the capacities they need to know when to shoot, when not 
to shoot when children are in a school building and parents 
have to drop their kids off at the school. So this is not a 
situation when in their private capacity, people can decide to 
wield firearms. Parents have to take their kids to school.
    The idea that untrained teachers who are not security 
professionals will be armed really just feels absurd on its 
face and it will also pose a very present danger to our young 
people.
    Senator Murray. The other side of that question is what are 
some of the programs that would not be funded if this money was 
taken away for arms training?
    Mr. Jeffries. Well, there are a range of services that 
Title IV funds from computer science programs, music, art, 
STEM, extended learning time, personalized learning, which is a 
very important approach that many school districts are going to 
now.
    The core educational services in Title 1 schools, schools 
are already struggling to meet and already do not have the 
resources to meet. The idea that we would divert precious and 
scarce resources to arming teachers is not only a bad policy, 
but it would contradict the equity mandates in ESSA.
    Senator Murray. Thank you very much. Appreciate it. My time 
is up.
    The Chairman. Thank you, Senator Murray.
    I want to get pretty quickly to the question of school 
report cards, but I want to briefly respond to a couple of 
comments Senator Murray had.
    I am glad to continue to visit with her about the question 
of whether Secretary DeVos is following the law in implementing 
the subgroups. The Senator raised that last January. Secretary 
DeVos offered to meet with us.
    I met with her and career lawyers from both the Trump and 
who formerly worked with the Obama administration, consulted 
with the congressional Research Service, and I believe that she 
is exactly following the law in those cases.
    She is still willing to meet with Senator Murray or other 
Senators who would like to meet with her to discuss that. I 
think we have a difference of opinion in reading the law.
    In terms of the waivers, there have been 23 waivers under 
the disability provision. They are granted according to a 
regulation that was guidance that was created during the Obama 
administration. They all, or most all, last for 1 year so that 
the state may implement those provisions, and that waiver 
provision is within the 2015 ESSA law.
    As far as guns go, arming teachers, I am not a fan of 
arming teachers, although the National Center for Education 
Statistics says 43 percent of schools do have armed school 
personnel.
    As I read the law, Title IV specifically gives states the 
decision about spending their money to create safe conditions 
including drug and violence prevention.
    The other law, Senator Hatch's provision, the Stop Violence 
in School Act, was a different provision under the Department 
of Justice where that funding is and it specifically says in 
that law that it is not to preclude any other provision of law 
authorizing provision of firearms or training in the use of 
firearms.
    Now, let me go to each of you and ask you about school 
report cards. One of the most offensive parts of No Child Left 
Behind to me was that we seemed to catch schools doing things 
wrong. There was a management book that was about catching 
people doing things right as a good principle of management, 
but we had this failing school designation which showed up in 
the newspapers, and it offended teachers, and discouraged 
people all across the board.
    The new law does not have a provision about what kind of 
school report card you should have. It does say that you should 
collect the data, these aggregated subgroups, and make it 
public. But each of you has, in different ways, created reports 
of what you are doing.
    In Delaware, there are scores of zero to 500 points and 
three categories. In Nebraska, you have excellent, great, good, 
or needs improvement. In South Carolina, you have excellent, 
good, average, below average, and unsatisfactory.
    Tell me your thoughts, if you can succinctly, about why you 
chose those labels and how you are avoiding the discouraging 
label of ``failing school''?
    Mr. Blomstedt.
    Dr. Blomstedt. Yes, in our case, we had several different 
conversations with our State Board of Education. We actually 
brought in folks from an assessment perspective in looking at 
how we would define our particular schools.
    We were actually somewhat, on some fronts, criticized for 
having a feeling like that is a positive skewed one. But I will 
tell you from our schools is they know what excellent is. They 
know what great is. They know what good is.
    What we are very worried about is providing the resources 
and support for those schools that fall in needs and permitted. 
So we had serious conversations about those particular labels 
and what they would mean for our schools.
    The Chairman. Ms. Bunting.
    Dr. Bunting. We have a philosophy of the people, by the 
people, and for the people and our report cards clearly reflect 
that.
    We have held a number of community conversations throughout 
the state, and it has been our stakeholders that have been able 
to guide us on what they would like to see in a report card.
    We are very transparent. We will report on subgroup data. 
We crunch that data, and we are very attuned to the performance 
and the gaps, and that will be made public for people to see.
    But we are highly engaged with our public in designing the 
exact features of that report card, and the labels that are 
used, and the method that has been designed to get them.
    The Chairman. Ms. Spearman, you have about 25 seconds.
    Ms. Spearman. Yes, sir.
    In South Carolina, we believe that words do matter. So we 
did try to find some encouragement for schools in what they 
were doing. We have a system that is a 100 point system. We are 
reporting on a very transparent report card that is very easy 
to understand by parents, I believe.
    The Chairman. Thank you very much.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    Thank you to the panel and for all you do for education.
    I first want to ask whether there is anybody on the panel 
who believes that we should be spending Federal education 
dollars to arm teachers in our schools?
    Dr. Bunting. In Delaware, that has not been a major topic 
of discussion, but actually our teachers union has come out 
against it. Our Governor is strongly against it. It is not 
getting traction and we have other ways. We are very concerned 
about school safety, but we are looking at other ways to make 
sure that that happens.
    Dr. Blomstedt. I would say in Nebraska's case, we have had 
no serious conversations at all about trying to use Federal 
funds for that approach, and I would not support that.
    Ms. Spearman. South Carolina, we are putting our focus on 
mental health counselors, school resource officers, and 
training of teachers.
    Senator Bennet. Thank you for that testimony.
    Mr. Jeffries said earlier that the whole purpose of Title 1 
was equity, and I believe that too.
    In fact, I do not think that--as a former school 
superintendent myself of the Denver public schools--I do not 
think that there is any reason for the Federal Government to be 
involved in this except for the civil rights issues.
    As all of you know, it is sad to say this and politicians 
do not like to say this, but it is sad to say that among 
wealthy countries in the world, we have some of the lowest 
economic mobility in our country of any country in the world, 
developed country in the world. The highest income inequality 
of any developed country in the world and the exception to that 
are people that get a quality education.
    The exception to the idea that your parents' income 
determines your income, that your parents' income exactly 
determines the quality of the education you can get are people 
who managed to get through somehow, like Mr. Jeffries talked 
about how he got through.
    I would be curious what each of you is doing in your states 
to take on this equity issue that Mr. Jeffries raised. Not just 
how you are spending your Title 1 money, but what are you doing 
to make sure the most qualified teachers are teaching the 
poorest kids? That the poorest kids have access to the highest 
quality curriculum, or to A.P. tests, that we are getting them 
through high school and into college?
    With that, I will yield the balance of my time. Mr. 
Blomstedt, please take it.
    Dr. Blomstedt. Yes, first of all, thanks for that question.
    I think for us, we have outlined a series of equity 
commitments from the Department of Education that go beyond, 
certainly beyond the requirements of ESSA and thinking about, 
``How are we going to get to each one of those students and 
make sure that they have the resources necessary to be 
successful?''
    When we are looking at our schools that need improvement 
and fall into that category, we are looking at specific 
interventions that are going to make a difference for them.
    I think, in particular, our work around thinking how we get 
the best teachers in these classrooms is absolutely important, 
absolutely critical. Thinking about how we support leaders that 
understand, building level leaders that understand what quality 
instruction looks like for all students. We get worried about 
things like the disproportionate discipline and other things 
that occur.
    We are looking at a whole bunch of different factors to 
make sure that we are changing our system to serve that equity 
need.
    Dr. Bunting. I can echo his statements and I would like to 
add that equity access is one of our main priorities under 
ESSA. We are doing a great deal, even to train our whole 
department, on equity issues and trying to diversify our 
workforce.
    Our state legislature is so dedicated to this cause that it 
has actually passed a law that we are to provide loan 
forgiveness for teachers who will go into the lowest performing 
schools, and they will be rewarded for taking that step.
    Ms. Spearman. One of the things that we are doing on the 
reality of finding bodies to go to some of these neglected 
communities, South Carolina runs a virtual school program where 
it is the fifth largest in the country. It is offered free to 
all of our schools, private and also homeschooled students with 
really high quality instruction. All of the A.P. courses are 
offered. So wherever you live, you can get high quality 
instruction.
    The other thing that we are doing and taking very seriously 
in our four tiered level of support to the fourth tier, which 
is management of school districts. We are currently managing 
three districts.
    For us, it was not just the quality teacher, but it was 
actually having school boards that were doing the right thing 
for children and supporting the leadership in the community to 
the point where I had to go in and take the authority away from 
those school board members. We are running those districts with 
folks on the ground and appointing new leadership in those 
communities.
    It is a system and if one part of the system is broken, if 
the people do not select really good leadership at the school 
board level, it will not work either. So it goes down to that 
level for us.
    Senator Bennet. Mr. Jeffries, I have 15 seconds left. Was 
there anything you would like to add on this equity point?
    Mr. Jeffries. Well, I would just add that this is not an 
area where you get an ``A'' for effort. So it is great that 
many states have a variety of initiatives, but that is 
precisely why the accountability mandate is so important, that 
the evidence has to actually show that these subgroups of kids 
actually are being prepared for their future.
    Senator Bennet. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Bennet.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you all for being here today. Thank you for your 
commitment to America's children. Thank you for your very 
straightforward answer to Senator Bennet's question regarding 
the efficacy of arming our teachers.
    It will not surprise you to know that I disagree with 
Senator Alexander with respect to the ability that the 
Secretary has to allow Title IV funds to be used to arm 
teachers. There is, in fact, in Title IV a specific permissive 
use of those funds for violence prevention.
    In that section of the statute, it allows for those funds 
to be used under Title IV for violence prevention so long as 
they are used to build weapons for these schools. That, to me, 
would suggest that it was the clear intent of those who wrote 
the bill on this Committee to deny the use of those funds to 
arm our teachers.
    Notwithstanding, as Senator Alexander notes, that there are 
certainly armed security officers in these schools, as has been 
the practice for a long time. I frankly wish that we had the 
Secretary of Education here or at least a representative of the 
Secretary of Education so we could have a conversation about 
how and why they are interpreting that statute in the way that 
they are.
    I look forward to continuing that discussion.
    I only have one additional question on this topic and I 
think I can probably guess the answer given your response to 
Senator Bennet's question.
    Are any of you aware of any data that suggest arming our 
teachers makes our schools safer?
    Ms. Spearman. I am not aware of any data.
    Dr. Bunting. I am not aware of it either.
    Dr. Blomstedt. Nor am I. I am not aware of it.
    Senator Murphy. Mr. Jeffries, you work with a lot of 
schools that are located in areas where there are high rates of 
gun violence.
    Is the problem in those neighborhoods, and in the places 
around those schools, that there are not enough guns?
    Mr. Jeffries. Absolutely not, Senator. Absolutely not.
    Senator Murphy. I will put this topic to bed because I like 
the place that we are on this panel, and I appreciate your 
answers to the question.
    I also agree with Senator Murray's concerns around the way 
in which this administration is failing to enforce many of the 
accountability metrics. I do not think we would have written 
four different subgroups; I know we would not have written four 
different subgroups into the accountability title in the law if 
we did not expect schools to actually measure and report on all 
four of those subgroup categories.
    But we also required that to the extent that whether in the 
subgroups or in the schools writ large if schools are not 
meeting the expectations that you set, that you will provide 
for evidence-based strategies to turn those schools around.
    One of the other concerns that we have is that Secretary 
DeVos has not required that states show that they are investing 
in evidence-based measures. And that was a really important 
phrase in that law to make sure that you are not just 
repainting the walls in the school and claiming that it is an 
intervention. That you are actually using what works to turn 
around performance for disabled kids, or for minority kids, or 
for English language learners.
    Let me just leave this as the last question.
    What do evidence-based interventions mean to you as school 
chiefs? What do you use to draw upon to make sure that you are 
not just doing something that sounds good, but that you are 
actually doing something that works when you are trying to 
serve these populations of kids?
    Dr. Bunting. We like to experiment with something, pilot a 
program, for example, and keep the data to show that it is 
making a difference at reducing the gap between our groups.
    We have also case formed our department and have a student 
support team that truly concentrates on just such supports. We 
are there providing that to go out to schools.
    I also meet with each superintendent from our districts and 
look at subgroup data and ask about what they are doing for the 
various subgroups, and I do that several times a year.
    Senator Murphy. Can I press you on that for a moment 
because you said that you like to experiment? But would not the 
language of the statute which requires you to use evidence-
based interventions mean that you are not free to experiment? 
You actually have to use interventions that have proof of 
concept already.
    Dr. Bunting. Correct. And then we pilot them in certain 
districts and follow-up. If it works, then we hopefully have 
tried them in districts that are diverse within the state and 
we can actually then make statements, ``This is a very 
worthwhile effort. We would like to see you implement it in 
your school.''
    We do have local control, but we also have a menu of 
evidence-based practices to recommend.
    Senator Murphy. Ten seconds, Mr. Blomstedt.
    Dr. Blomstedt. Yes, so thanks. We put something in there we 
call an evidence-based analysis in our school improvement 
process, and we are going to include that as part of our 
ongoing school improvement and accreditation process in 
addition to the accountability side. So that is our approach.
    Senator Murphy. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Spearman, did you want to answer his 
question?
    Ms. Spearman. For us, it means that we do not just say, 
``Tell us how you are going to fix yourself,'' anymore. There 
are strings attached to the funding.
    We do have, in fact, we are finding that a very concrete, 
research-based system for most of these school districts is 
very simply that we need to tell them, ``This is how you need 
to do it.''
    The Chairman. Thank you, Senator Murphy.
    Senator Cassidy.
    Senator Cassidy. Hello to you all.
    Ms. Spearman, my mother is from Camden, South Carolina and 
I am just listening to you speak, and I am just thinking of my 
Aunt Lucille. So thank you for bringing a great memory.
    Folks on this panel know that I am very interested in 
dyslexia. It affects one in five of our students. Here is an 
article from ``The Journal of Pediatrics,'' again showing that 
the problem of dyslexia can be found as early as first grade.
    If you do not screen, if we do, ``Wait a second, they 
cannot read by third,'' well then, it is lost because you learn 
to read by Grade 4 and then you read to learn, but by that 
time, you have not learned to read.
    Let me just ask, not you, Mr. Jeffries because you are the 
advocate, if I will, but of those who are the educational 
directors, what are you all specifically doing to screen for 
dyslexia? At what age do you begin to screen? And then after 
having screened, what is your approach to address the issue?
    Mr. Blomstedt.
    Dr. Blomstedt. Yes, thank you. Actually we just had a 
pretty thorough discussion with our legislature this past 
legislative session on something we are calling the Nebraska 
Reading Improvement Act and actually implementing some 
assessments, kindergarten through Second Grade and then into 
Third Grade.
    Looking at what gaps there are in assessing a student's 
ability to read and where they are at, and addressing dyslexia 
among other things. Making sure that we have a fairly sweeping 
opportunity to analyze where every student is and really 
working with school districts to do that.
    Senator Cassidy. How are you screening?
    Dr. Blomstedt. Yes, I am probably not going to do good on 
the various tests, but there are different tests that we are 
looking at, and actually some that we are having to recommend 
across the state. So we will actually have a set of recommended 
assessments.
    Senator Cassidy. This is a work in progress.
    Dr. Blomstedt. Yes, it is. It is, right.
    Senator Cassidy. If a child screens positively for at risk 
for dyslexia, what then is done?
    Dr. Blomstedt. The expectation is that any student that 
would actually screen for dyslexia, there would be appropriate 
strategies put in place for that individual.
    Senator Cassidy. Any elaboration on what that strategy is?
    Dr. Blomstedt. I probably will not do as well at the 
specific strategies, but that is the intent that every school 
would have a strategy behind it.
    Senator Cassidy. Ms. Bunting.
    Dr. Bunting. That is true in Delaware as well, and it 
depends on the student's exact strengths and weaknesses as we 
test for the dyslexia.
    Senator Cassidy. What grade level do you screen and is that 
screening universal?
    Dr. Bunting. It is universal. We have an observational set 
of efforts first and then beyond that, in kindergarten, for 
example.
    Senator Cassidy. Now, let me ask because most 
kindergarteners do not read.
    Dr. Bunting. Correct.
    Senator Cassidy. When you say ``observational,'' what is 
being observed?
    Dr. Bunting. There are certain habits, certain practices, 
reversal of letters and things of that nature that begin to 
make you question if there might be some dyslexia involved.
    There is great conversation between the reading specialist, 
and most schools have a reading specialist. They also have 
reading interventionists.
    Senator Cassidy. Is it more the observation than it is a 
formal screening process?
    Dr. Bunting. As you become first graders and second 
graders, it becomes more formal as far as the identification.
    Senator Cassidy. Can I ask what that formal process is?
    Dr. Bunting. There are tests that are used and I am not, at 
this moment, able to tell you the exact name of the test that 
is used in each case, but our reading specialists in the 
schools have a variety.
    Senator Cassidy. Now, if a child screens positively--I have 
limited time, I do not mean to be rude--if a child screens 
positive for being at risk, what is then done with she or he?
    Dr. Bunting. The reading interventionist may be working 
with that child. We also have a multi-tiered system of support 
that we provide.
    Senator Cassidy. Now, is this the so-called R.T.I.? Or is 
this something which is more----
    Dr. Bunting. It is much broader than that, and then we 
actually, as I mentioned, have reading specialists in each of 
our schools who will either directly provide services to 
students or they may give certain tactics to be used in the 
classroom depending on the child's degree of need.
    Senator Cassidy. Ms. Spearman?
    Ms. Spearman. In South Carolina, we are in our fourth year 
of legislation called Read to Succeed, which means that every 
teacher, including P.E. and music teachers, have to have an 
additional add-on certificate in their tools of how to teach 
reading.
    Just last year, we passed dyslexia legislation that does 
require screening in K and first grade. It is done three times.
    Senator Cassidy. What grades is this?
    Ms. Spearman. Kindergarten and first grade.
    Senator Cassidy. That is great.
    Ms. Spearman. We do----
    Senator Cassidy. That is universal?
    Ms. Spearman. Yes, sir. And we have training modules for 
our teachers where they are now----
    Senator Cassidy. Can you share the results? Do you have 
those at the top of your head, if you will, what percent of 
your children are screening at risk?
    Ms. Spearman. This is our first year going into that.
    Senator Cassidy. Got it.
    Ms. Spearman. But I can get you any other information that 
we might have, but we have really been working to make sure. 
Because our teachers were neither equipped with the tools 
needed to address dyslexia nor other reading problems as well.
    Senator Cassidy. I may have questions for the record. I am 
out of time.
    Ms. Spearman. Yes, sir.
    Senator Cassidy. A real shout out. My wife has started a 
public charter school for children with dyslexia, but has 
worked with a school near Clemson, which is also a public 
charter school in South Carolina, for those with dyslexia.
    Ms. Spearman. If I may, we also have a tax credit that 
families can take advantage of called Exceptional SC where 
children, if you are not being served in the public school, and 
if there is a private school that can help your child, those 
children can go tuition-free.
    We have a dyslexia focused school, private schools across 
the state where families can attend those as well.
    Senator Cassidy. Thank you all.
    The Chairman. Thank you, Senator Cassidy.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    First, I just want to join my colleagues who have expressed 
concern with allowing school districts to use Federal education 
dollars to buy guns for their teachers.
    Now, many public schools in this country cannot afford 
school nurses, guidance counselors, or basic classroom supplies 
for their students.
    Allowing schools to use scarce Federal dollars to put guns 
in classrooms is an idea that is dangerous and dumb, and it 
clearly was not our intent when we wrote ESSA.
    I want to thank all the moms and friends of moms who are 
here this morning to remind Congress that we do not work for 
the N.R.A. We work for the people.
    I am here to talk about how states are implementing ESSA, 
and I am going to submit questions for the record on 
accountability provisions in the law.
    But last week, we marked the one-year anniversary of 
Hurricanes Maria and Irma, which absolutely devastated Puerto 
Rico and the U.S. Virgin Islands.
    The Puerto Rican government recently revised its death toll 
to 2,975 American citizens who lost their lives due to Maria 
and its aftermath. That makes it the deadliest natural disaster 
in modern American history.
    We also know that this storm had ripple effects all across 
the country, displacing tens of thousands of children and 
families, sending many students who were not able to stay on 
the island to new schools all across the country.
    Just by a show of hands, how many of you absorbed students 
from Puerto Rico or the U.S. Virgin Islands into your school 
systems last year?
    [Hands raised by Dr. Bunting and Ms. Spearman.]
    Senator Warren. Secretary Bunting, how many displaced 
students did Delaware take in?
    Dr. Bunting. Approximately 100.
    Senator Warren. About 100.
    Dr. Bunting. About 100.
    Senator Warren. Superintendent Spearman, how about South 
Carolina, about how many students?
    Ms. Spearman. Fifty.
    Senator Warren. You had about 50.
    Superintendent Spearman, do you expect more students this 
year because of Hurricane Florence?
    Ms. Spearman. We do. In fact, today is not a good day in 
some of our school districts in South Carolina because the 
floodwaters of Hurricane Florence are arriving in the Horry 
school district, Georgetown school district as we speak.
    We anticipate a much larger number with our sister State of 
North Carolina being hurt so badly.
    Senator Warren. Well, and this is exactly the point. When 
disasters hit, they do not affect only the communities that are 
directly hit by the eye of the storm.
    In Massachusetts, we took over 3,200 students who were 
displaced by Maria. We did that because that is what we do in a 
disaster. We reach out. We take care of people who need help 
for as long as they need it. I know that in most of our states 
including Tennessee, the same thing has happened.
    On the first day of school in Puerto Rico last month, more 
than 250 schools were permanently shuttered. In the first week 
of the school year, more than 56,000 enrolled students, 
students who the Puerto Rican Department of Education expected 
to be in school, were missing from classes because they have 
not come back. That does not even include the decrease of 
approximately 42,000 students in enrollment since last year.
    Mr. Jeffries, these are profound numbers. Do you think 
Congress should hold hearings on Hurricane Maria and its 
devastating impacts on the educational system to figure out 
what lessons we can learn before the next disaster strikes?
    Mr. Jeffries. Absolutely, absolutely.
    As the Senator pointed out, we have had well over 250 
schools closed, well over 40,000 children displaced. There are 
all types of questions in terms of schools being overcrowded, 
whether kids are getting their mental health services and 
special education services, as well as just broader questions 
about whether or not basic educational opportunities are 
available to those kids.
    Senator Warren. Thank you.
    Commissioner Blomstedt, do you know how many hearings the 
Senate has held on how the education and health systems in 
Puerto Rico were affected by Hurricane Maria, the deadliest 
storm in modern American history?
    Dr. Blomstedt. I am guessing zero, but I did not know there 
would be a test.
    Senator Warren. Well, but you got the right answer.
    Dr. Blomstedt. All right.
    Senator Warren. Because the answer is none, zero.
    Hurricane Maria killed about 3,000 American citizens, had a 
crippling impact on health and education systems in Puerto Rico 
and the U.S. Virgin Islands, had an impact all around the 
country, and yet, there has not been a single hearing.
    Three months after Hurricane Maria, a bipartisan group of 
nine Members of this Committee wrote to the Chairman to ask for 
a hearing on Hurricane Maria's impact on health and education 
systems. A month later, 186 organizations sent the Chairman a 
letter echoing this request.
    Mr. Chairman, I have spoken to you privately about this 
multiple times. I believe you when you say you are looking into 
it. I want to respect your hearing selection process.
    This morning, I sent you another letter asking for a 
hearing. I have seven of my colleagues who have joined me in 
this request.
    We hope you will consider this latest request and that we 
will have a hearing on the impact, the devastating impact on 
Puerto Rico, the U.S. Virgin Islands, and the rest of the 
country because of this deadly hurricane.
    The Chairman. Thank you, Senator Warren. I have the letter 
right in front of me and I thank you for giving it to me before 
the hearing.
    Senator Hassan.
    Senator Hassan. Well, thank you, Mr. Chairman and Ranking 
Member Murray.
    Good morning to the panelists. Thank you for being here. 
Thank you for your expertise and your passion for educating our 
kids.
    I want to start off just by echoing my colleagues' concerns 
about any Federal dollars being used to arm teachers. It is a 
dangerous proposal. It goes against congressional intent and 
Secretary DeVos has full authority to deny that any education 
funding be used in this way.
    But today we are here to talk about the implementation of 
ESSA. This law has been lauded as opening the door to more 
flexibility for states to be innovative, something that my own 
State of New Hampshire knows a great deal about.
    New Hampshire's Performance Assessment of Competency 
Education, or what we call PACE, executed through a Federal 
waiver, helped pave the way to the creation of ESSA's 
innovative assessment pilot, a pilot that New Hampshire has 
since applied to.
    Schools participating in PACE replaced standardized testing 
with locally developed common performance assessments that are 
integrated into a student's day to day work while giving the 
statewide assessment to those students just once per grade 
span.
    As we innovate, I think as we all know, we discover things 
like kids learn better with hands-on education, and some kids 
learn better with a combination of hands-on and reading and 
writing and the like.
    We know that innovation is important, but first and 
foremost, we need to ensure that all students have the tools 
that they need to succeed, that that innovation actually works, 
and that is where accountability comes in.
    To Mr. Jeffries, the Every Student Succeeds Act is a civil 
rights law that was designed to ensure that all students have 
the opportunity to excel regardless of personal circumstances. 
And I agree with you, you do not get an ``A'' for effort here. 
We really have to do things that work.
    The law includes specific guardrails to protect students 
who have been historically underserved including requiring that 
states factor the performance of student subgroups into their 
accountability systems.
    Specifically, the law requires states to establish a system 
of meaningful differentiation on an annual basis of all public 
schools in the state which shall be, and this the language in 
the law, which shall be based on all indicators in the state's 
accountability system for all students and for each subgroup of 
students.
    According to analysis conducted by the Alliance for 
Excellent Education, only 17 states include the performance of 
subgroups in their ratings as required by ESSA and many more 
states risk under-identifying students for support.
    I am very concerned that the U.S. Department of Education 
has approved state accountability plans that are not in 
compliance with the law.
    Mr. Jeffries, do you think the Department of Education 
should require states to amend their plans to bring them into 
full compliance with ESSA?
    Mr. Jeffries. Absolutely, not only should the Department do 
that, the Department must do that because the bargain that this 
Congress made with the states was that in exchange for these 
dollars, you must implement the subgroup accountability 
mandate. So there really is no discretion for her not to 
require amendment in those circumstances.
    Senator Hassan. Well, thank you for that.
    I am going to ask a question to the state chiefs and 
directors who are here. We may have to ask the specifics of it 
for the record, but ESSA presents an opportunity to make 
important strides for the Nation's students, particularly those 
who have been continually underserved.
    I am particularly concerned about students with 
disabilities, children who have tremendous potential, but often 
need additional support to achieve it. nationwide, less than 67 
percent of students who experience disabilities graduate from 
high school with their peers, and in 12 states, over one-third 
of students who fail to graduate are students who experience 
disabilities.
    In a forthcoming report, the National Council for Learning 
Disabilities identifies ways in which states, through their 
ESSA state plans, could better meet the needs of students who 
experience disabilities.
    The report states that while some states have strong plans 
to use ESSA to help meet the needs of students with 
disabilities, far too many states are squandering this 
opportunity. We have heard some concern about raising the 
number of waivers allowed to school districts for children with 
disabilities.
    I will tell you that, from a personal perspective, my adult 
son has very severe cerebral palsy. He is nonverbal, but he is 
very cognitively able. It was not until his school district was 
required to assess how he was doing and figure out how they 
could communicate with him and he could communicate with them 
that he actually began to make progress. Because the school 
district, the teachers kept saying, ``We are doing all these 
things.'' And we kept saying as parents, ``But how do you know 
they are working?''
    It was not until a regular education teacher said, ``You 
have a very smart son.'' And I said, ``Well, we think he is 
smart, but how do you know?'' And this is a really good regular 
education teacher in a busy classroom. She said, ``Because he 
laughs whenever the other kids get the wrong answer.''
    [Laughter.]
    Senator Hassan. Which told me that my child was very mean, 
too, but.
    [Laughter.]
    Senator Hassan. But the point of this story is that from 
that experience, they developed a way in which they realized 
that Ben could raise his hand to say, ``Yes.'' And they 
developed a variation of multiple choice testing to see how he 
was doing. And he began to score regularly above 90 percent on 
testing. He began to be accepted in his community, and develop 
friendships, and develop the kind of community we all want our 
children to have in school.
    That is why it is so important that we do more than just 
try. We do know that there are methods that work. We have to 
drilldown. We have to get the resources there.
    That is why I will follow-up with all of you about what 
your districts are doing to really identify what these kids in 
different subgroups need and how we can improve, because I 
think that is the future, not only of education for kids with 
disabilities who we need to empower and we need to employ. But 
it is also the future for making sure we have the kind of 
education system that really speaks to each child's potential 
regardless of whether they are coded for disability or not.
    Senator Hassan. Thank you, Mr. Chairman, for allowing me to 
go over.
    The Chairman. Thank you, Senator Hassan.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Hassan, you are reminding me, again, of how 
grateful I am to have you as a colleague along with all of my 
others around.
    I also just want to add my thanks to the moms and the 
friends of moms in the room who are standing up for commonsense 
approaches to keeping our kids safe and our teachers safe in 
schools. Thank you so much. And though it is not the specific 
topic of this discussion, I want to add my voice of opposition 
to using these scarce Federal resources to buy guns.
    I am very interested in this particular Title IV of ESSA 
and let me explain what my interest is right now.
    I have visited so many schools and teachers across 
Minnesota, and I always ask teachers what keeps them up at 
night. Inevitably what they will say to me, it is the mental 
health of their students that causes the most worry and the 
most concern.
    Just last week, I was visiting with teachers, and students, 
and counselors at Roosevelt High School in Minneapolis, and 
just a moment ago, I was visiting with administrators from the 
schools in northern Minnesota, particularly schools in Indian 
country in Minnesota; same concern.
    It is not surprising given the enormous issues that young 
people face and the particular challenges we are seeing 
particularly related to the opioid crisis, of course, and 
problems with addiction as well. So many kids are struggling 
with difficult family situations, with trauma, historic trauma 
often, violence, substance abuse.
    Estimates are that one in five teens have a mental health 
challenge, which is severe enough to cause them significant 
impairment in their day to day lives, and then we expect them 
to come into our classrooms and be ready to take tests and do 
well.
    I would like to ask about this specifically, and I would 
like to start with you, Mr. Jeffries. The Title IV-A block 
grant allows schools to provide mental health services as a use 
of those dollars.
    Could you talk to us a little bit about how that works, and 
how you see the relationship between the need for greater 
mental health services in schools and our efforts to address 
inequities in our educational system?
    Mr. Jeffries. Thank you, Senator.
    This is a critical area. We have, particularly in our Title 
1 schools, we have young people who bring in trauma with them 
into the classroom. We have young people bringing trauma 
associated with housing insecurity. We have homeless kids. We 
have kids who see domestic violence in their homes. We have 
kids who have lost family members.
    We have kids, then, with a range of issues and too many of 
our schools simply do not have the resources and are simply not 
equipped to meet those challenges.
    Senator Smith. Often, these are treated as discipline 
challenges----
    Mr. Jeffries. That is correct.
    Senator Smith. ----Rather than health challenges.
    Mr. Jeffries. That is exactly right. So rather than 
treating these as health challenges, we are quick to suspend 
and expel kids, and that helps to fuel the school to prison 
pipeline, as well.
    This is a critical issue and frankly even reinforces even 
more the absurdity of diverting scarce Title IV dollars to 
arming educators.
    Senator Smith. Would others on the panel like to address 
this issue? Yes, Ms. Spearman.
    Ms. Spearman. Thank you, Senator.
    Senator Smith. Thank you very much, Mr. Jeffries.
    Mr. Jeffries. Thank you.
    Ms. Spearman. You are right on target. I hear the same 
thing from principals who say, ``We need help in mental health 
issues.''
    We have set a goal in South Carolina. Currently, we have 
mental health counselors in about half of our schools. We have 
a goal that by 2022, we will have mental health, access to 
mental health and tele-psychiatry. We are doing this through 
virtual psychiatry. We are putting boxes in schools with nurses 
who are equipped to know how to set an appointment up with a 
student. So we are very, very proud of this.
    The other thing that we are doing is to have pre-crisis 
intervention teams in every school. We want, if a child, or a 
student, or a faculty member reports something, we want it 
handled before a tragedy occurs so these students would be 
referred.
    Senator Smith. What we are seeing in Minnesota is that if 
you link body health with mental health that you reduce some of 
the stigma and some of the barriers that even students in 
middle school and high school feel toward seeing the care that 
they need, the services that they need.
    Have you seen that as well in your experience?
    Dr. Bunting. We have, but we are doing direct action not 
only with adding personnel, because this is a great need in 
Delaware as well. But we are also training full staffs to be 
alert to adverse childhood experience signals, to look for 
signs of mental health.
    We are piloting responsible classrooms. We are doing 
compassionate school training, and we are doing this in 
conjunction with our teachers union, which is a really 
interesting partnership.
    Senator Smith. That is good.
    I am just about out of time, so I would love to talk more 
with you about this. I am working on two bills that will expand 
mental health services in schools, including a bill that is in 
the big opioid package that this Committee passed out with, I 
think, unanimous support. I am very eager to see that 
additional work in schools. So thank you for all of your work 
on this.
    The Chairman. Thank you, Senator Smith.
    Senator Jones.
    Senator Jones. Thank you, Mr. Chairman.
    Thank you, ladies and gentlemen, for your service today and 
for your testimony.
    Like at least everyone else on this side of the dais, I 
want to express my support for all the red, I see. I was not 
sure if I was coming to a hearing or a University of Alabama 
pep rally when I walked in.
    [Laughter.]
    Senator Jones. But I have publicly talked about the fact 
that I felt like arming teachers was the dumbest idea that I 
think I have ever heard in the educational field. And I still 
have seen nothing to change my mind on that. With that said, I 
would like to talk about reading a little bit.
    It seems to me, based on 2015 data that I have seen from 
the National Assessment of Educational Progress, the Nation's 
report card, showed that 46 percent of white twelfth graders 
were proficient or above in reading. Only 17 percent of African 
American students scored at the same level.
    Now, aside from the fact that if you really think about it, 
those figures alone are pretty stunning, that 46 percent and 17 
percent, but the gap between 46 percent and 17 percent, a 29 
percent gap is not just stunning, it is a national disgrace.
    ESSA is, in my view, as much of a civil rights law as it is 
an educational law, but 64 years after ``Brown v. Board of 
Education,'' we are still seeing tremendous gaps between white 
students and African American students. So I would like to hear 
from each of you because I think this can be tied----
    That was 2015, hopefully, that has changed somewhat, but it 
cannot be too dramatic over the course of 3 years.
    I would like to hear from each of you just briefly what 
steps are being taken because I think the subgroup 
accountability is going to not help that situation if we are 
conflating things. But what in each of your states, and Mr. 
Jeffries, you can address this too, what is being done? What 
can we do to narrow that gap on reading with kids in America?
    Ms. Spearman. We believe focused instruction for those 
young people who are underperforming. In our Read to Succeed 
legislation, we are measuring whether you are reading on grade 
level by third grade. But the really strong schools are doing 
that in kindergarten and first grade, not waiting until third 
grade. We have summer reading camps.
    We used the ability this year to set aside some of our 
Title funding; 3 percent set aside that went to the neediest 
areas, many of them used that for additional interventions in 
reading.
    Senator Jones. All right. Let us go all the way this way. 
We will get to you, Mr. Jeffries, last. Let us go to Nebraska.
    Dr. Blomstedt. Yes, from my perspective, one of the 
critical equity issues of our day is early childhood. The 
ability for states and local school districts to ensure that 
there is quality educational opportunities at the early 
childhood level.
    When children enter our schools in the K-12 environment and 
they come in with a significant opportunity gap around reading 
that is a gap that is going to be hard to close.
    We have really looked in Nebraska about how we are going to 
do that and made sure among other things, but ensure that on 
the early childhood front, there is a significant opportunity 
for all students to be able to be in that setting or in a 
setting that is going to advance them.
    Senator Jones. Thank you.
    Dr. Bunting. We find that that is a root cause of our third 
graders not being proficient in reading as well. So we are 
working very closely with our early childhood community to link 
what they are doing with what is expected for that child by the 
time he enters kindergarten.
    As I mentioned earlier, we also have put reading 
interventionists in our schools. We have reading teachers, 
reading specialists always trying to analyze the problem as it 
occurs early and letting us have that opportunity to make a 
difference.
    Senator Jones. Mr. Jeffries.
    Mr. Jeffries. Four quick pieces, I would say one, 
absolutely, early childhood is absolutely critical. Oftentimes, 
these efforts already begin when kids hit kindergarten. In many 
states, kids do not have access to high quality preschool 
programs.
    Second, making sure that we get our best teachers into the 
most high need schools, and part of that, there needs to be 
differentials in pay, so we can actually pay teachers more to 
go to the most high need schools.
    Third, reimaging teacher prep; many of our programs of 
teacher preparation are very antiquated and there is very 
little data showing that many of the programs actually are 
producing graduates who are actually driving achievement in 
classrooms.
    Then fourth, unpacking bias; sadly, when it comes to some 
of the issues of racial inequity, we have too many teachers who 
come into the classroom and frankly just think less of kids of 
color. Think kids of color do not have the same capacity to 
learn to the same degree that white students have, and that is 
precisely why the accountability provision is so critical.
    For too long, folks have said, ``We tried to do it. We are 
doing the best we can. We do not know what else to do.'' But 
oftentimes underneath that are a set of biases that we have 
seen for a long period of time, unfortunately, in our country.
    Those are the type of initiatives we think we ought to 
pursue.
    Senator Jones. All right. Thank you all.
    I am going to submit a question for the record that I would 
like each of you to answer because the next thing we are going 
to be taking up, I think next year, is likely the Higher 
Education Act and the reauthorization. And I would like to 
submit a question for each of you.
    What are the lessons from ESSA that we can maybe apply on 
accountability and issues for the Higher Education Act?
    Senator Jones. Thank you, again, Mr. Chairman.
    Thank you all for being here today.
    The Chairman. Thank you, Senator Jones.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    I want to thank the panel for being here today and for your 
work on these issues.
    I will start with Dr. Bunting for a question which involves 
the issue of what we do on school property with regard to 
firearms. I know it has been asked and referred to several 
different times. I think there is one part of this question 
which I am not sure has been asked.
    As many of you know, the two leading unions in the country 
for teachers are the American Federation of Teachers and the 
National Education Association. Both have certainly opposed 
arming teachers and have jointly called proposals to do so, 
``astounding and disturbing.'' I will read a much longer 
quotation from both unions.
    ``We must do everything we can to reduce the possibility of 
any gunfire in schools and concentrate on ways to keep all guns 
off school property, and ensure the safety of children and 
school employees.'' That is directly from both organizations.
    Dr. Bunting, I would ask you the first question, which is, 
do you agree with the assessment of the American Federation of 
Teachers and the National Education Association?
    Dr. Bunting. I think they adhere to the policy that the 
best way to prevent an emergency is to prevent it. That is the 
best way to deal with it.
    Senator Casey. The second question is about alternatives. 
What are some alternatives to purchasing weapons that might 
help to make schools, in fact, safer?
    Dr. Bunting. In the vein of prevention, there is much that 
can be done. We actually are working in Delaware with our 
Homeland Security group that has additional measures put into 
place in schools.
    With our emergency management organization, we are looking 
at schools and assessing what additional features must increase 
their safety and security in buildings.
    Our legislature has actually created a school safety and 
security fund to provide funding for things that could help in 
schools, not people necessarily. But the choice is a local 
decision as to what might be needed: secured entrances, panic 
buttons, any kind of signaling device, trainings, and so forth. 
So we are looking at it from the perspective of preventing 
anything that might happen.
    We also do have in many of our schools safety officers, 
many of them are constables. We also have school resource 
officers. So we are trying to make sure that we accent the 
security of our staff and our students, but we are not looking 
at something that involves purchasing firearms with Title IV 
moneys.
    We also go at it from the mental health perspective, 
thinking that that is contributing to the problem as well and 
trying to prevent that.
    Senator Casey. Dr. Bunting, thank you very much.
    The next question I will ask is with regard to 
disaggregating data by subgroup. I will lay down a foundation 
for the question first.
    The Elementary and Secondary Education Act includes a 
number of important provisions to ensure that states are able 
to identify and address persistent achievement gaps and provide 
all children with high quality public education. And in 
particular, states identify schools that have consistently 
underperforming subgroups, as well as schools that have the 
lowest performing subgroups.
    The law requires the different categories of 
underperforming schools are identified and targeted for 
support. Reporting data disaggregated by subgroup is meant to 
help shine a light on achievement gaps and help states and 
local districts to target resources where they are needed most.
    Professor Jeffries, I will start with you and I may be out 
of time by the time we get to your answer. But we have seen a 
number of instances in which the Department has approved state 
plans that do not clearly define when a school will be 
identified for additional support to improve their students' 
academic achievement.
    Can you please describe problems that a vague criteria for 
receiving additional support definition could cause with 
particular emphasis on the impact on students with 
disabilities? Sorry for the long question.
    Mr. Jeffries. Well, the first step is the failure to 
differentiate by subgroup by the children with disabilities. 
Subgroup would mean in the first instance, that any state plan 
on the remedial side that the plan will not be tailored to the 
nature of the problems because the state would not have a 
precise sense of what those problems are. So that is number 
one.
    Then if on top of that states are submitting to the 
Department a very vague, very ambiguous plan about how they are 
going to meet those challenges, which at some level, they are 
going to be vague and ambiguous because there is not the 
subgroup differentiation.
    Then that is going to mean that the very objective that 
Congress had in enacting ESSA to provide a fair, equitable, 
high quality education to close achievement gaps, for those 
students with disabilities, they are not going to receive what 
Congress promised, which is an equitable education.
    This is absolutely paramount and is absolutely critical for 
this Congress to hold the Department accountable to do what 
Congress said it must do in exchange for the money, 
differentiate by subgroup and then have evidence-based remedies 
to address any deficits that exist.
    Senator Casey. Great.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Casey.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman; an important 
hearing.
    Thank you all for being here. I want to ask about gaps of a 
different kind. I want to talk to you about discipline.
    One of the requirements in ESSA was that states would have 
to describe how the state will support local educational 
agencies receiving assistance to improve school conditions for 
student learning, including through reducing, quote, ``The 
overuse of discipline practices that removes students from the 
classroom.''
    Often, discipline practices have been utilized in ways that 
are highly discriminatory, especially against minority 
students. And kids then absorb that lesson and they think they 
are going to get into trouble more likely than their peers, and 
that affects their learning.
    I would hope that you might each take a minute, if you 
would, and tell me in your states just what you are trying to 
do to review and utilize data on school discipline to make sure 
that we are not penalizing historically underserved students? 
And then maybe Mr. Jefferies, you could talk about it from the 
perspective of a national perspective. Do you think D.O.E. and 
the states are doing enough to reduce disparate uses of 
discipline?
    Thank you.
    Ms. Spearman. I am very proud of the work that we have done 
in South Carolina. In my first year of office, we held a 
taskforce to look at our student discipline templates, the 
training of resource officers, and to really address the issue 
of the pipeline to prison. I think we have adequately made some 
changes.
    Then this past year, our General Assembly also passed new 
legislation on disrupting schools to clarify that. We are 
working now to get those into regulation. I am very pleased 
with the progress that we have made.
    Again, we also in our ESSA plan from our stakeholders heard 
that parents wanted to know about student climate and that is 
why we have included that as one of our indicators where 
students will be telling us how they feel about the safety 
inside their schools.
    We are looking forward to that information being on our 
report card.
    Senator Kaine. Great, thank you.
    Ms. Bunting.
    Dr. Bunting. Again, I can echo much of what has been said, 
but I will add to it that we are very concerned about some of 
the disproportionate figures that we have analyzed. We do watch 
data very closely in Delaware and then we have full 
conversations and expect actions to reduce gaps or to remove 
the disparities.
    But I think our efforts this year--and I am very proud, as 
I mentioned--of our staffs moving forward with such training as 
ACES for Adverse Childhood Experiences and understanding what 
an impact that would make in a classroom, and for trying such 
things as responsive classroom techniques and compassionate 
schools.
    We are working at it from the understand perspective as 
well in offering alternatives that are not ones that involves 
suspension and expulsion at times. We cannot teach students if 
they are not there with us.
    Senator Kaine. Absolutely.
    Mr. Blomstedt.
    Dr. Blomstedt. Yes, so in Nebraska, we have had, I think, 
really serious conversations about how to do this. And we 
actually had a couple of instances where we were enforcing the 
prior--even before ESSA passed--the prior law and how that was 
addressed. I was not in a position necessarily.
    We entered in a battle with a particular school district. I 
said, ``What in the lay out of plans is going to make a 
particular difference for your students?'' Let us think about 
trauma informed. Let us think about culturally responsive 
practices within your schools.
    I have walked hallways in some of our schools where kids 
are outside the classroom for something as simple as crinkling 
a water bottle or something like this. And I am going, ``This 
is absurd.''
    We need to be ensuring that our students are in our 
classrooms, that the discipline should not be removing their 
opportunity to learn. It should be a conversation about 
creating that climate and culture that is appropriate.
    Our efforts have really turned to that approach, different 
than the traditional compliance. Bang somebody over the head 
with their numbers, but more about what are our strategies that 
are going to really make a difference, and then track the 
numbers on accountability.
    Senator Kaine. Excellent.
    Mr. Jeffries, address it from the national level in things 
that we should pay attention to as we are exercising oversight 
over the D.O.E.'s efforts in this regard.
    Mr. Jeffries. Thank you, Senator.
    We think it is critical for Congress to, again, demand the 
data. Folks are very well intentioned throughout the country. 
They are really trying to do the right thing, but the proof is 
in the pudding.
    We continue to see throughout this country, particularly 
with low income kids and even more so particularly low income 
kids of color, we continue to see disproportionate discipline, 
disproportionate suspensions, disproportionate expulsions for 
the same types of activities that white students, upper income 
students are receiving different sort of reactions to.
    We have gotten reports, even recently, of African American 
students in certain school districts being sent home because 
they did not have a belt on and there was a certain uniform 
policy.
    These sort of practices fundamentally contravene the equity 
mandates of ESSA. We absolutely need more of the trauma 
informed and restored justice practices. The absolute last 
resort for any school district, particularly a school district 
that receive Title 1 funds, should be to send a baby home. So 
if a child makes a mistake, kids are going to make mistakes. I 
have two kids. I could never imagine, if my kids make a 
mistake----
    Senator Kaine. Do not get me started.
    [Laughter.]
    Mr. Jeffries. ----Say, ``I am going to kick you out the 
house.'' Right? ``You did not do your homework. You did not do 
what me and your mom asked you to do. We are going to kick you 
out the house. Go outside and then we will figure out when we 
are going to let you back in.''
    The idea that we would kick babies out and send them back 
into the community is simply ridiculous. And, in fact, we just 
saw a study of a kid who was sent home who actually was 
murdered on the way back home. And so particularly when we have 
kids coming from communities filled with difficulty and trauma, 
and the school is their oasis to get away from that.
    Clearly, we need Congress to demand data to make sure that 
schools and states are doing the right thing.
    Senator Kaine. Well, thank you for that.
    Mr. Chairman, I think I will ask a follow-up for the record 
as well about some of the best practices that you mentioned 
from legislation, compassionate schools, to some of the 
programs that you mentioned and get some best practices from 
you that might be helpful for the Committee.
    Thank you.
    The Chairman. Thank you, Senator Kaine.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    I wanted to go back to one issue I talked about in my 
opening statement and that is my concern with Secretary DeVos' 
decision to waive the 1 percent testing cap for 23 states now, 
because I really do worry about too many children with 
disabilities suffering from low expectations.
    I am very deeply troubled that despite requests from my 
staff, the Department has not made these waiver requests, and 
the supporting documentation, public. Instead, they are posting 
boilerplate approval letters on their Website, which really 
makes me wonder, what are they hiding?
    Mr. Jeffries, quickly, can you think of any good reason why 
a state would want to hide the information from the public?
    Mr. Jeffries. Absolutely not. I mean, the public is 
entitled to the information. Parents, families, policymakers 
cannot act if they do not have access to the information.
    Senator Murray. In fact, part of our goal in ESSA was to 
ensure parents had more information.
    Mr. Jeffries. Absolutely.
    Senator Murray. They could make good decisions.
    Dr. Bunting, Dr. Blomstedt, both of your states actually 
requested and received a 1 percent waiver. Will you share your 
request letter and the supporting documents with this 
Committee?
    Dr. Blomstedt. Yes, I believe we can. That would be no 
problem. I will tell you, ours gets into the notions of traps 
within those figures, but I would be happy to talk more about 
that.
    Senator Murray. But you are willing to release that, then.
    Ms. Bunting.
    Dr. Bunting. Yes, we would also. Ours is slightly over by a 
couple of hundreds.
    Senator Murray. Okay.
    Dr. Bunting. But we would be glad to share that 
correspondence.
    Senator Murray. Thank you. And in the interest of public 
transparency in our education system, would you be willing to 
make those documents public?
    Dr. Blomstedt. I am, yes.
    Dr. Bunting. I am as well.
    Senator Murray. Okay, thank you very much. I appreciate 
that.
    Just let me ask, as a condition of getting those waivers, 
you are required to take steps intending to reduce the number 
of students who are taking the alternate assessments in your 
state so you get below that 1 percent? I just wanted to ask 
each one of you what your states are doing?
    Mr. Blomstedt, if could you tell us?
    Dr. Blomstedt. Yes, I think in our particular case, we have 
actually had quite a transition on our state assessment system. 
So at high school, we have gone from a state assessment to 
A.C.T. That was required by our state legislature.
    We have actually just implemented a new 3 through 8 
assessment system as well, and at that same point in time, a 
new alternate assessment with three different vendors. So a lot 
of ours is kind of in that approach in looking at where we can 
set some targets to get those numbers appropriately in place.
    Dr. Bunting. That is also true for us. We have a fairly new 
alternative assessment. We are looking at the data and then we 
take steps to assure that we are meeting the requirement next 
time.
    Senator Murray. You are addressing the disproportion based 
on race in those requests on who takes it?
    Dr. Bunting. Yes.
    Senator Murray. That is one of the requirements of the law 
is that you address it.
    Dr. Blomstedt. Yes, I would have to look at the specifics, 
but I believe so. Yes.
    Senator Murray. All right. And then there are a number of 
others. If we could have your documentation, that would be very 
helpful. I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    On the waiver issue, the waiver is in the law. There have 
been 23 waivers granted, most are for 1 year for 
implementation. There is a Website that has the application 
letter and the approval or declining letter.
    I am told that it is standard practice not to release the 
preliminary conversations. The last two administrations at 
least did not do that. I am not sure what the argument is for 
and against. I see that the states might not object to that, so 
I will take a look at that myself and see what I think about 
it.
    But I thought the fact that the Website contains the 
application and the denial and the reason or approval for it 
has been sufficient for prior administrations and this 
administration seemed to think the same.
    I wanted to ask one other question. I suppose when we 
started our discussions on No Child Left Behind and fixing it, 
that the one thing we heard the most about was testing.
    At first, my recommendation was that we eliminate the 17 
federally required tests and let states decide what tests there 
ought to be, as well as decide what to do about the tests. 
Others had a different view and so, our compromise in the end 
was we would keep the 17 tests, but then allow the states to 
decide what to do about the results of the tests. Looking back 
on it, think that was a good compromise, the result of a good 
discussion among Senators on the Committee. But we heard a lot 
about over-testing.
    Now tell me, if you will, in your states--and Mr. Jeffries, 
I would be interested in your opinion as well--what other 
factors you are looking at to measure a school's performance 
and quality other than test scores?
    Mr. Blomstedt.
    Dr. Blomstedt. Yes, in part, of course, assessments are 
extremely important. I will tell you that Nebraska law also 
requires us to have essentially the same set of tests that ESSA 
does. And so, there is really some agreement on that side of 
the equation.
    But when we try to look at other things that matter to our 
students, levels of student engagement really matter. I mean, 
if students and parents are not engaged, we do not have 
everything----
    The Chairman. What do you mean by student engagement?
    Dr. Blomstedt. Student engagement, that they actually feel 
like there is someone in the school setting that, number one, 
is keeping them engaged and not just being in a position where, 
``They do not care about me.'' They cannot identify an adult in 
that school that cares and knows about them.
    Things like that are actually important. Now, I would not 
include that necessarily in our accountability system per se, 
but it is part of what we are talking about is how do you 
measure that type of engagement? How do you understand the 
positive partnerships and relationships that students need to 
be successful, and our schools are providing that as well.
    We are also looking at, certainly, things like absenteeism 
as one particular measure. So we have included chronic 
absenteeism, but it is really kind of a proxy for other 
engagement. Are they engaged? Do they have other difficulties? 
Are we addressing that with each of our students?
    That gives you a couple of examples.
    The Chairman. Ms. Bunting.
    Dr. Bunting. If we are looking at our official Delaware 
school success framework, we do include things such as chronic 
absenteeism. We are looking at science and social studies as 
well.
    We are very concerned about students who are prepared for 
whatever they choose to do once they leave us: career, college, 
work, military. We measure that.
    We are also concerned about watching our high schoolers so 
that we are assessing whether or not someone is on track for 
graduation because we realize the value of that diploma and 
what it means for, again, whatever choice that student may make 
as he or she leaves us.
    The English language proficiency progress is very important 
to us in Delaware because we have an extremely rapidly growing 
Hispanic population. We care deeply about those students and 
want to make sure that that gap does not exist.
    We are working on that one.
    The Chairman. Mr. Jeffries.
    Mr. Jeffries. We see some states looking at teacher 
retention, attendance rates, administrative retention, the 
ultimate graduation rates of the young people, the extent to 
which young people graduate. They may have a diploma, but then 
do they need remediation when they get to college, particularly 
community colleges?
    We see some charter schools in particular and some 
innovative schools experimenting with student satisfaction 
surveys where the students can weigh-in on their experience at 
the school, and we even see some also in the charter school 
space as well. That will bring in independent entities to 
evaluate pedagogy instruction in classroom and school practice.
    The Chairman. Thank you.
    Ms. Spearman.
    Ms. Spearman. Yes, sir.
    In South Carolina, I think we did our best job at the high 
school level with all of our multiple measures I mentioned 
earlier. We have the student climate survey that we are using 
in 3 through 12 grades.
    But I think we have some work to do in South Carolina on 
our elementary and middle school ratings. We are still too 
heavily based on just test scores. I think the arts, I think 
leadership development programs that are given in the school 
should be considered because that is a big, important part of 
what we do in those schools. We are not measuring those yet. So 
that is something we are working on. We will probably be coming 
for some amendments to our plan.
    The Chairman. Thank you very much.
    Thanks to all of the witnesses. Thanks to the Senators. We 
have had good participation by Senators today.
    You witnesses know better than anybody else how filled with 
different opinions and discussions about education can be. It 
is like a University of Tennessee football game with 100,000 
people in the stands all knowing exactly what the next play 
ought to be. So we all are experts on it.
    We were very proud of the fact that we were able to come to 
a conclusion in 2015 on Every Student Succeeds Act and hope it 
is education policy for a good while. We will look forward to 
continuing to learning the implementation that you will make.
    I want to also thank our guests, the people who have come 
today. We welcome you. This is your right to be here and I hope 
you have seen that while we had some real differences of 
opinion on a Committee this large that we try to do it in a 
civil and respectful way. We appreciate the fact that you have 
done the same. So we hope you will come back some time.
    The hearing record will remain open for 10 days. Members 
may submit additional information for the record within that 
time.
    The next meeting hearing entitled, ``Health Care in Rural 
America: Examining Experience and Costs,'' will occur this 
afternoon at 3:30 p.m. Senator Enzi is chairing that effort.
    Thank you for being here today.
    The Committee will stand adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]

                         [all]
</pre></body></html>
